<html>
<title> - BUILDING ON THE WIRELESS REVOLUTION: OPPORTUNITIES AND BARRIERS FOR SMALL FIRMS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
  BUILDING ON THE WIRELESS REVOLUTION: OPPORTUNITIES AND BARRIERS FOR 
                              SMALL FIRMS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                           FEBRUARY 11, 2014

                               __________

                               [GRAPHIC] [TIFF OMITTED] TONGRESS.#13
                               

            Small Business Committee Document Number 113-055
              Available via the GPO Website: www.fdsys.gov



                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
86-640                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e88f9887a88b9d9b9c808d8498c68b8785c6">[email&#160;protected]</a>  


                   HOUSE COMMITTEE ON SMALL BUSINESS

                     SAM GRAVES, Missouri, Chairman
                           STEVE CHABOT, Ohio
                            STEVE KING, Iowa
                         MIKE COFFMAN, Colorado
                      BLAINE LUETKEMEYER, Missouri
                     MICK MULVANEY, South Carolina
                         SCOTT TIPTON, Colorado
                   JAIME HERRERA BEUTLER, Washington
                        RICHARD HANNA, New York
                         TIM HUELSKAMP, Kansas
                       DAVID SCHWEIKERT, Arizona
                       KERRY BENTIVOLIO, Michigan
                        CHRIS COLLINS, New York
                        TOM RICE, South Carolina
               NYDIA VELAZQUEZ, New York, Ranking Member
                         KURT SCHRADER, Oregon
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                        JANICE HAHN, California
                     DONALD PAYNE, JR., New Jersey
                          GRACE MENG, New York
                        BRAD SCHNEIDER, Illinois
                          RON BARBER, Arizona
                    ANN McLANE KUSTER, New Hampshire
                        PATRICK MURPHY, Florida

                      Lori Salley, Staff Director
                    Paul Sass, Deputy Staff Director
                      Barry Pineles, Chief Counsel
                  Michael Day, Minority Staff Director


                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Sam Graves..................................................     1
Hon. Nydia Velazquez.............................................     2

                               WITNESSES

Mr. Michael Feldman, Vice President of Engineering, BigBelly 
  Solar, Newton, MA..............................................     3
Mr. Brian Marshall, Owner, Marshall Farms, Maysville, MO, 
  testifying on behalf of Missouri Farm Bureau Federation and the 
  American Farm Bureau Federation................................     5
Mr. Leo A. McCloskey, Senior Vice President, Technical Programs, 
  Intelligent Transportation Society of America (ITS America), 
  Washington, DC.................................................     7
Mr. Darrell West, Vice President, Governance Studies, Director 
  Center for Tech Innovation, Brookings Institution, Washington, 
  DC.............................................................     9

                                APPENDIX

Prepared Statements:
    Mr. Michael Feldman, Vice President of Engineering, BigBelly 
      Solar, Newton, MA..........................................    24
    Mr. Brian Marshall, Owner, Marshall Farms, Maysville, MO, 
      testifying on behalf of Missouri Farm Bureau Federation and 
      the American Farm Bureau Federation........................    30
    Mr. Leo A. McCloskey, Senior Vice President, Technical 
      Programs, Intelligent Transportation Society of America 
      (ITS America), Washington, DC..............................    39
    Mr. Darrell West, Vice President, Governance Studies, 
      Director Center for Tech Innovation, Brookings Institution, 
      Washington, DC.............................................    43
Question for the Record:
    Question to Mr. Michael Feldman from Hon. Richard Hanna......    52
Answer for the Record:
    Answer from Mr. Michael Feldman to Hon. Richard Hanna........    52
Additional Material for the Record:
    CCIA - Computer & Communications Industry Association........    53


  BUILDING ON THE WIRELESS REVOLUTION: OPPORTUNITIES AND BARRIERS FOR 
                              SMALL FIRMS

                              ----------                              


                      WEDNESDAY, FEBRUARY 11, 2014

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 1:00 p.m., in Room 
2360, Rayburn House Office Building. Hon. Sam Graves [chairman 
of the Committee] presiding.
    Present: Representatives Graves, Chabot, Luetkemeyer, 
Herrera Beutler, Collins, Velazquez, Chu, Payne, and Meng.
    Chairman GRAVES. Good afternoon, everyone. We will call 
this hearing to order.
    I want to thank our panel of witnesses for taking the time 
out of their full-time jobs to make the trip to Washington for 
this very important hearing.
    In today's hearing we are going to examine one of the most 
dynamic and innovative industries in the United States--
wireless technology. The wireless industry continues to grow at 
an exponential pace, largely due to the constant state of 
innovation in the sector. Now, home appliances can be operated 
by smartphone, farmers can monitor soil conditions from afar, 
and vehicles can nearly drive themselves. These are just a few 
examples of the innovations being developed and used by small 
firms with wireless technology.
    The increase in connectivity of devices to each other, 
commonly referred to as the Internet of things, has the 
potential to be a game-changer. According to a McKenzie study, 
over one trillion things could be connected through technology 
by 2025, resulting in a potential economic impact of $36 
trillion. This means thousands of new jobs created by small, 
innovative firms, as well as a variety of industries, and new 
tools for small businesses to improve their operations.
    While it is easy to understand the benefits of this 
emerging industry, these technologies depend on sufficient 
access to spectrum and reliable wireless network to operate 
effectively. As the demand in wireless services continues to 
grow, the Federal government must work to reallocate unused 
spectrum to make it more available to wireless broadband and 
innovative devices like these. It is also important to note 
that these opportunities would not be available it not for the 
investment in broadband infrastructure by private sector 
carriers.
    To bring these products to the market, small businesses 
must navigate an assortment of challenges, including financing, 
marketing, and regulations. We are interested to learn more 
about these innovations, as well as the barriers to developing 
and using these technologies that small firms and farmers are 
experiencing.
    Again, I want to thank all of our witnesses for being here 
today. I now recognize Ranking Member Velazquez.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    Wireless connectivity is transforming our daily lives by 
revolutionizing health care, education, public safety, and 
nearly every other economic sector. With almost two-thirds of 
cell phone users now utilizing their phones to shop, conduct 
business, or surf the web, it comes as no surprise that the 
wireless industry is expected to soon be valued at $25 billion. 
Such rapid industry growth will account for an estimated 
500,000 jobs. It should also come as no surprise that 
entrepreneurs are among the most technology-savvy consumers. 
Small firms increasingly find innovative ways to access and tap 
markets through low cost voice and videoconferencing. Many 
small businesses are utilizing social media to interact with 
consumers and market their products and services. Not only is 
this technology helping small firms reach new customers, but 
the very nature of office efficiency has been changed. Novel 
innovations empower business owners to track productivity 
gains, reduce paperwork, and better meet customer needs. In 
fact, wireless technology has become so central to business 
operations that 65 percent of small firms say they will 
struggle to survive without it.
    The most successful businesses are not just the ones 
adopting new products and software, but they are also those 
developing new technologies. In just a few short years, 
developers have created millions of apps, and this number 
continues growing exponentially. The vast majority of these 
designers and developers are small firms. One study found that 
78 percent of developers are small businesses with many having 
fewer than 10 employees.
    Despite recent gains, the wireless sector faces several 
challenges to continued growth, such as regulatory uncertainty, 
cybersecurity, privacy issues, and capital infusion. The most 
contentious and immediate obstacle to wireless innovation 
appears to be access to sufficient spectrum. Spectrum capacity 
is necessary to deliver high speed, high quality communications 
to consumers and businesses of all types but this ever-
increasing demand for mobile broadband is causing a spectrum 
crunch.
    As technology improvements alone cannot solve this problem, 
changes to spectrum policy will likely need to be addressed. 
One such issue is ensuring the FCC conducts spectrum auctions 
in a manner that is fair for small firms. Balancing the needs 
of all parties is important for guaranteeing industry 
competition. For this reason, I applaud Chairman Wheeler's 
announcement to postpone the auctions until they can develop an 
adequate process that meets objectives like this.
    At today's hearing, we will also touch on the use of 
unlicensed spectrum and its role in sparking innovation. Unlike 
licensed spectrum, unlicensed spectrum is available to a wide 
audience at relatively lower costs. This valuable 
communications resource is estimated to generate $15 billion a 
year for the U.S. economy. As it is a critical platform for 
entrepreneurs to use in developing their products, I welcome 
making more of this spectrum available to foster yet more 
entrepreneurship and innovation. Just as today's hearing will 
focus on small business innovation in the mobile technology 
industry, it will also give us a chance to hear the challenges 
these businesses raise and their thoughts on the spectrum 
crunch. The insights gathered today will help ensure the needs 
of small firms are taken into account in future FCC spectrum 
auctions. I do not think it is an overstatement to suggest our 
country's continued competitiveness in the technology sector 
depends on this process functioning fairly and smoothly.
    In that regard, I thank the witnesses for contributing to 
this valuable discussion, and I yield back the balance of my 
time.
    Chairman GRAVES. Thank you.
    Our first witness is Michael Feldman. He is a vice 
president of Engineering with BigBelly Solar Company. BigBelly 
develops and manufactured solar-powered trash cans with sensor 
technology for efficient waste management. They were recipients 
of Verizon's Powerful Answers award at the 2014 Consumer 
Electronic Show for their work in sustainability.
    Thanks for being here, Mr. Feldman.

 STATEMENTS OF MICHAEL FELDMAN, VICE PRESIDENT OF ENGINEERING, 
  BIGBELLY SOLAR; BRIAN MARSHALL, OWNER, MARSHALL FARMS; LEO 
     MCCLOSKEY, SENIOR VICE PRESIDENT, TECHNICAL PROGRAMS, 
 INTELLIGENT TRANSPORTATION SOCIETY OF AMERICA; DARRELL WEST, 
     VICE PRESIDENT, GOVERNANCE STUDIES, DIRECTOR OF TECH 
               INNOVATION, BROOKINGS INSTITUTION

                  STATEMENT OF MICHAEL FELDMAN

    Mr. FELDMAN. Thank you, Chairman Graves
    Chairman Graves, Ranking Member Velazquez, and Committee 
Members. My name is Michael Feldman, and I am vice president of 
Engineering at BigBelly Solar.
    BigBelly Solar was founded in Newton, Massachusetts, with 
the mission of reducing CO2 emissions from gas-hungry garbage 
collection vehicles by eliminating unnecessary miles driven. A 
standard garbage truck gets three miles per gallon and in the 
United States alone, with an estimated 180,000 garbage trucks 
traveling the roads, they collectively consume over one billion 
gallons of fuel while contributing 18 million tons of CO2 into 
the atmosphere each year. That is the equivalent usage of an 
Exxon Valdez oil spill every four days, and this does not 
include the congestion and nuisance they cause amongst our city 
streets and roadways. By reducing, or even eliminating, 
unnecessary driving miles, we can significantly cut this usage 
pattern. As we like to remind people, the cheapest and cleanest 
mile is the one never driven.
    Manufactured in Lexington Kentucky, the BigBelly Waste and 
Recycling System provides a unique combination of information 
technology software, solar power, and on-site compaction at 
public space locations. By compacting the waste, which 
increases storage capacity, we are left with a trash can that 
does not require emptying as often. In fact, a BigBelly is 
capable of holding five times more waste and is more 
intelligent than traditional trash cans. This reduces 
collections on average from twice a day to approximately once 
every other day. Furthermore, utilizing solar energy to power 
the compaction mechanics allows a BigBelly to be placed 
virtually anywhere without the need to connect to the electric 
grid.
    BigBelly has been an early champion and recognized leader 
in the growing machine-to-machine (M2M) marketplace. A 
significant part of the BigBelly solution incorporates wireless 
technology to transmit data from the trash receptacles to a 
central database for processing. Users of the system access 
this data from a simple and easy to use web application that 
provides important information, including which cans need to be 
emptied, historical reports and analytical reports. There is 
even a mobile application for smartphones and tablet devices.
    This technology used is very similar to that found in 
modern cell phones today, only instead of calling another 
person, the BigBelly calls another machine. Here is how it 
works. Each BigBelly trash compactor is equipped with a series 
of electronic sensors, solar panel, a battery, and an internal 
computer. The solar panel is used to keep the battery charged 
which drives the compaction mechanisms. A compaction is 
triggered when the trash level inside the bin crosses a sensor 
beam. As more waste is deposited, this process continues until 
the internal computer determines the bin is full. The computer 
will then use the wireless network to transmit the fullness 
data to a central computer system, where users can see that the 
bin needs to be emptied. Trash cans have never been smarter.
    Today, you can find a BigBelly in every state in the United 
States and exported to over 40 countries around the world. Our 
product can be seen in cities and towns, both large and small, 
colleges and universities, military bases, national parks, and 
government agencies.
    Like all small businesses, we are not without our share of 
challenges. We are a small company of 40 employees. For any 
business wishing to connect wireless devices, telecommunication 
industry certification costs upwards of $30,000 before they 
will allow new devices to connect to their network. While we 
certainly are in full agreement and have no issue with the 
intent and protection the carriers require, in many instances 
we found these tests were aimed at cell phone-style devices, 
not M2M devices, such as BigBelly. After all, you cannot hold a 
BigBelly up to your ear.
    Likewise, federal assistance for energy efficiency 
community block (EECB) grants has run out. This is most 
unfortunate as it enabled municipalities to participate in new 
green technologies, such as BigBelly, that have proven 
dividends not only to the town's balance sheets and budgets, 
but to the environment as well. Your sponsorship, endorsement, 
and legislation assisting environmental and wireless technology 
products like BigBelly and creating new or similar programs 
such as the EECB will benefit all Americans. Furthermore, cash 
strapped cities and towns are unable to apply for and receive 
solar energy credits for the deployment of a BigBelly solar 
system.
    As explained earlier, our use of solar and wireless 
technology allows the BigBelly product to operate out of the 
reach of the electric grid. However, solar energy grants only 
apply to products that connect to this grid. Given this 
positive dollar savings, environmental, and economic impact 
this class of product has, we ask the Committee to research and 
investigate how these solar credits are dispersed and to 
implement changes that could incorporate new solar and wireless 
technologies like BigBelly that would enable your cities and 
towns to receive these credits.
    In closing, I would like to thank the members of the Small 
Business Committee for allowing me the opportunity to present 
the BigBelly story and provide insight into how we are using 
wireless technology to save real budget dollars and make a 
tangible impact on the environment one trash can at a time.
    Chairman GRAVES. Thank you, Mr. Feldman.
    Our next witness is Brian Marshall. Brian is a full-time 
family farmer from DeKalb County, Missouri. Together with his 
family he grows corn, soybeans, and wheat. Brian uses a variety 
of wireless technologies to increase the efficiency and 
productivity of his operation, and he is chairman of the Young 
Farmers Committee with the Missouri Farm Bureau. He is 
testifying on behalf of the Missouri Farm Bureau Federation and 
the American Farm Bureau Federation (AFBF).
    Thanks for being here, Mr. Marshall.

                  STATEMENT OF BRIAN MARSHALL

    Mr. MARSHALL. Chairman Graves and Ranking Member Velazquez, 
Members of the Committee, thank you for the opportunity to 
testify on behalf of the American Farm Bureau Federation and 
the Missouri Farm Bureau Federation.
    I am here today to discuss how the advancement of 
technology is affecting modern agriculture. My farm is about an 
hour north of Kansas City in Maysville, Missouri. Both of my 
grandfathers farmed in the Maysville area, as does my father 
today.
    I am going to share with you about some of the technologies 
we are using on our farm, and I hope to offer some perspective 
from my fellow Farm Bureau members as well.
    When I came back to our family farm, I did not envision 
being the new tech guy. That role has become a large part of my 
responsibilities as our farm and the use of technology has 
grown. On our farm, we use GPS on three tractors, two combines, 
and the application rig we use to apply crop protection 
products. This rig I mentioned is also equipped with auto 
steer. Allowing a computer to guide the machine increases 
accuracy and allows me to more closely monitor its performance. 
Our rig is also equipped with a new method of application that 
uses a computer to manage the droplet size based on the product 
being applied. This keeps a consistent pattern at any speed and 
the chances of offsite application are greatly reduced.
    The most important piece of equipment on our farm is the 
planter because it is very difficult to fix a poorly planted 
crop. We have added aftermarket parts, such as a precision 
monitor, to track everything from seed placement to the amount 
of force that is used to put the seed in the ground. I also 
have an iPad that is synced to my planter monitor, running 
software that allows me to do real-time mapping and data 
analysis right there in the field.
    When any farmer plants an irregular-shaped field, the 
potential for overplanting goes up. As planters have increased 
in size, so, too, has the chance for using too much seed in 
these fields. To reduce this problem on my farm, we have 
equipped our planter with row point clutches. The clutches use 
a GPS signal to shut off when crossing into any part of the 
field that has already been planted. Not only does this save 
seed cost, but it helps eliminate yield loss from plant 
overcrowding in double-planted areas.
    I mentioned to you earlier that three of our tractors are 
equipped with auto steer. At $10,000 per machine for an economy 
system, it is not cheap to put auto steer on a tractor. All of 
the technology we have discussed did require a sizable 
investment. However, we feel that through the savings in input 
costs and operator fatigue, we have more than paid for these 
investments.
    Recently, Dad and I met with an agronomist to address what 
is known as ``prescriptions'' for our farm. Many farms across 
the Midwest have soil types and yield potential that vary 
widely. Our land is no different. With the technology available 
today, we can merge several years' worth of data to get a more 
complete picture of what is going on and then make more 
accurate decisions for every farm and every acre on that farm.
    Not that long ago, it took careful planning and a support 
team to do tedious tests just to generate a fraction of the 
data that we are able to get access to right now from the 
field, even in a combine. The new technology will undoubtedly 
help make farmers more efficient and allow the use of fewer 
inputs while increasing their overall level of output. The 
amount of real-time information gained at a micro level is a 
big change that has taken place within the last two years and 
is of concern to our organization. We refer to this issue as 
``big data.'' From Farm Bureau's perspective, one of the most 
important issues related to big data goes directly to property 
rights and who owns and controls this data. In addition, since 
the farmer's information is valuable to these companies, 
farmers should have a say in and be compensated when their data 
is sold.
    There is a real need for farmers to protect their data and 
make sure they bargain wisely as they share their data with 
suppliers and companies who desire to access their information. 
AFBF is working to convene formal discussions with all 
interested parties with a goal of security cooperation on this 
emerging issue among farmers, companies, and other production 
chain stakeholders.
    The future looks very impressive in terms of technological 
advancement in agriculture, but we should not overlook the gaps 
that exist, particularly in rural areas. I find it ironic that 
I can upload yield data in real-time from my combine to the 
cloud as I am shelling corn, yet it can be difficult to watch 
local programs on television or have a cell phone conversation 
in my area.
    I encourage the Committee to share these concerns and the 
policies adopted by my fellow Farm Bureau members with the 
Federal Communications Commission since they affect farmers and 
other small business owners in rural areas as well.
    As I have learned by attending meetings and conferences, 
what works on my farm may not necessarily be practical for my 
neighbor. America's farms and ranches vary in size and scope, 
and farmers need a variety of tools in the toolbox. I do not 
expect you to share my level of enthusiasm for real-time data 
collection, but I hope you are excited about farmers' use of 
technology to increase efficiencies, better manage their 
inputs, and ultimately, to help us better serve consumers from 
my hometown all the way to New York.
    Thank you.
    Chairman GRAVES. Thanks, Brian.
    Our next witness is Leo McCloskey, senior vice president at 
the Intelligent Transportation Society of America. Leo recently 
joined ITS America from a small firm, Airbiquity, an industry 
leader in connected vehicle technology. He has nearly 20 years 
of experience in this industry, including leadership positions 
in multiple small technology firms.
    Thanks for being here.

                   STATEMENT OF LEO MCCLOSKEY

    Mr. McCLOSKEY. Thank you. Chairman Graves, Ranking Member 
Velazquez, and Members of the Committee, thank you for the 
opportunity to testify about the merging of transportation and 
wireless network connectivity, how it benefits the overall 
economy and provides opportunities for small business.
    I am honored to share my views on behalf of the Intelligent 
Transportation Society of America, which brings together public 
agencies, private industry, and academic experts to advance 
technology solutions to the nation's transportation challenges. 
More than half of our nearly 500 members are private sector 
companies, including major automakers, high tech, telecomm, 
tolling, and infrastructure firms, as well as entrepreneurial 
small companies who are propelling innovation forward in 
transportation.
    I would like to speak with you about the wireless 
technologies in two distinct areas. The first area is the 
importance of transportation technologies for businesses of all 
sizes and why building smart technology into the nation's 
transportation system is a smart investment. The second area 
pertains to technology innovations in transportation services, 
which are being driven by entrepreneurs and small businesses.
    The performance of our nation's transportation system is 
critical to the overall health and competitiveness of our 
economy. The objective of a transportation system, especially 
our national one, is to make the journey from origin to 
destination as efficient as possible, whether it be for a 
product or a person. Predictability in transparency in the 
transportation journey and across the supply chain is essential 
for businesses to adequately plan their operations. Unexpected 
delays in shipping and receiving costs money and jobs. As we 
have all experienced, our national transportation system is 
pretty darn congested. According to the Texas A&M 
Transportation Institute, the annual financial cost of 
congestion is over $120 billion a year, wasting more than 5.5 
billion hours and $3 billion in fuel costs, while pushing an 
additional $56 billion pounds of emissions into the atmosphere.
    While much of the investment required to restore our system 
will go towards roadways, bridges, and public transit, nearly 
every new transportation project should also contain a 
significant technology component. Research has shown that 
investments in technology from adaptive signals that control 
traffic to electronic toll collection have a greater return on 
investment than traditional infrastructure projects, while 
providing a safer, more efficient transportation network for 
businesses and the traveling public. For example, a small 
business like Lifespan Technologies, which is in Georgia, has 
developed wireless sensors that provide a detailed indication 
of bridge infrastructure health and can direct engineering 
activity to where it is most needed. Such technology pinpoints 
problems while removing the guesswork that comes with only 
visual inspections.
    Another small business driving the transportation 
technology industry forward is Savari Networks in California, 
which supplies the wireless technologies enabling cars to 
communicate with other cars, as well as the surrounding 
transportation infrastructure which is intended to prevent 
crashes. They are now expanding into Detroit and expect to 
double in employee size this year.
    Small businesses like Streetline, Park Mobile, and 
Parkopedia, are busy at work hiring staff to help rid the world 
of wasted time trying to locate parking. Using wireless 
technologies, each brings innovation to a very common problem 
that creates an average of 30 percent of city traffic 
congestion.
    And finally, I would be remiss without noting that many 
entrepreneurs are now expanding the shared ride market. 
Companies like Uber, Car2Go, Lyft, and RideScout are making it 
simpler and cheaper to go from one place to another. There are 
jobs in software development and service operations in all of 
these companies, and there are real supply problems they are 
solving--the efficient movement of people from origin to 
destination.
    But there are also many drivers--hard-working, licensed 
drivers--who can now operate as independent businesses, as 
small business owners and operators. If we consider our 
nation's demographics over the coming decades, providing 
sensible transportation to a growing segment of the population, 
one which would still benefit from mobility services, as well 
as from much-reduced risk to themselves and others while in 
mobility, it would seem an industry worth encouraging. The key 
challenge though is collecting accurate, real-time data about 
the operations of the transportation system in a manner that 
maintains anonymity and advances the deployment of 
transportation technology.
    As you can imagine, the data from a communicative 
transportation infrastructure is valuable to many parties. For 
example, states and cities need better data to manage traffic 
and target investments to where the needs are greatest. Fleet 
operators and shipping managers could use the data to 
dynamically adjust routes and better maintain on-time 
performance, and first responders could use the data to avoid 
route congestion or gain traffic signal priority.
    In short, data creates opportunity and the likelihood of 
more jobs, making investments in intelligent transportation 
systems a very smart investment for all parties.
    Thank you again for the opportunity to testify, and I look 
forward to answering your questions.
    Mr. LUETKEMEYER. [Presiding] Thank you, Mr. McCloskey.
    And we will have the ranking member introduce our next 
guest.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    It is my pleasure to introduce Mr. Darrell West, vice 
president and director of Governance Studies and founding 
director of the Center for Technology Innovation at The 
Brookings Institution. He also holds the Douglas Dillon Chair 
of the Institution. His current research focuses on technology, 
mass media, and public sector innovation.
    Prior to Brookings, Mr. West was the John Hazen White 
professor of Political Science and Public Policy and director 
of the Taubman Center for Public Policy at Brown University.
    Welcome, and thank you for being here.

                   STATEMENT OF DARRELL WEST

    Mr. WEST. Thank you very much, Chairman Graves, Ranking 
Member Velazquez, and other Members of the Committee. Thank you 
for the opportunity to testify here today.
    So as you have heard from my fellow witnesses, wireless 
communications are growing dramatically and are vital for 
economic development, health care, energy, agriculture, 
transportation, and a number of other areas. I have already 
learned something new here today. I did not realize that we had 
smart trash cans. I could use a few of those in my D.C. 
neighborhood, so I think that is a good idea.
    There are tremendous opportunities for small businesses in 
a number of different areas if we can overcome the obstacles 
that currently exist. Small firms face a number of different 
problems in the areas of regulation, spectrum availability, 
infrastructure, and access. But there are several steps that we 
can undertake that would make a big difference for small 
businesses. Perhaps the most important issue to address is the 
question of spectrum availability. According to the FCC, we 
need a minimum of 300 megahertz for mobile technology over the 
next five years, and 500 megahertz overall, including both 
mobile and other uses of spectrum, in order to accommodate the 
growing use of smartphones, tablets, and mobile broadband.
    We need a balanced spectrum policy that includes both 
licensed and unlicensed spectrum. Currently, there is a 
mismatch between spectrum supply and demand. We need market-
based auctions for reallocating scarce resources in spectrum 
auctions. There are a number of organizations, both public and 
private, that are sitting on unused spectrum, and so we need to 
develop mechanisms to reallocate them to higher priorities.
    We know that the FCC currently is working on specifications 
for the upcoming auction. We recommend that legislators should 
make sure that small businesses have a fair shot at competing 
for unused spectrum, and also that entrepreneurs from diverse 
walks of live have an opportunity to bid on the spectrum. We 
think that unlicensed spectrum should be an important part of 
what we need to emphasize here. There currently are a number of 
innovative small business services that make use of unlicensed 
Wi-Fi. Consumers can access a wide range of digital services at 
coffee shops, in airports, and through business establishments 
around the country.
    According to a SYSCO study, 55 percent of all Internet 
protocol traffic is expected to run over Wi-Fi networks by 
2017. A number of Internet service providers are moving their 
service delivery to Wi-Fi hotspots, and so therefore, improving 
availability to unlicensed spectrum through the 5 gigahertz bin 
will alleviate some of the current spectrum.
    There also is underutilized bin in the 3.5 gigahertz band. 
It is possible to turn some of this low power segment into a 
citizen's broadband service. Right now it is deployed for naval 
radar utilization, but it could be used for civilian purposes 
in geographic areas where the Navy does not operate. And so 
this is an example of spectrum repurposing that would allow 
people to take much more effective use of those networks.
    We need to make more efficient use of existing spectrum. We 
need to determine ways to take advantage of the spectrum that 
we have. There have been advances in cognitive radio 
applications that are designed to make more efficient use of 
current resources. Scientists are working on ways that allow 
multiple, noninterfering uses of various bandwidths.
    We need infrastructure improvements. There are new 
applications in a variety of areas that require high speed 
mobile broadband. We need to improve our data sharing networks 
and promote wireless connections that take advantage of these 
new developments. We also need to encourage local communities 
to streamline the approval process for building new cell towers 
and laying fiber optic lines because right now communities have 
a wide range of different rules depending on the area.
    The last point I will make is we need to encourage higher 
broadband adoption among underserved populations. About 30 
percent of Americans lack home broadband access, and for these 
underserved populations there are a variety of things that we 
should do to improve adoption. We could adopt digital literacy 
programs, improve market competition to drive down consumer 
costs, and develop outreach programs designed to help bridge 
this digital divide. So with these actions, I think both 
consumers and small businesses would have better opportunities 
to gain the benefits of the mobile economy.
    Thank you very much.
    Mr. LUETKEMEYER. Thank you very much.
    With that, we will begin the questions with Mr. Collins. He 
has five minutes.
    Mr. COLLINS. Thank you, Mr. Chairman.
    Mr. Feldman, I am really--by the way, thank you all for 
coming today. I am kind of intrigued by your product. How long 
have you been making it?
    Mr. FELDMAN. BigBelly actually started in 2003, and first 
started really getting traction in the City of Philadelphia, I 
believe, was the first major deployment, and that was around 
2008.
    Mr. COLLINS. So is it one size or do you have multiple 
sizes?
    Mr. FELDMAN. What there is, we call it a station. There is 
a mailbox-sized trash compactor. The compactor does the 
compaction, obviously. And on the recycler side there is 
actually sonar inside that can sense the height of the trash. 
Either of those can trigger a fullness notification.
    Mr. COLLINS. But is it a one-size trash can?
    Mr. FELDMAN. Yes. It is a 30-gallon trash bin and it holds 
150 gallons of waste.
    Mr. COLLINS. Now, sometimes you have garbage trucks that 
have the arms that pick it up and dump it. Could you do that or 
does it have to be manually?
    Mr. FELDMAN. Today it is manual. They unlock, open up a 
door. It is an enclosed system. And they open up a door. The 
collector takes it out, picks up a bag, puts it in the truck 
like you would normally see.
    Mr. COLLINS. Is that sometimes an issue with some cities 
that do the automatic?
    Mr. FELDMAN. We have requests for lift arm capabilities and 
that is something that we are currently in development working 
on.
    Mr. COLLINS. So without giving away trade secrets, what is 
the ballpark price on one of your units?
    Mr. FELDMAN. $2,995. $2,995 for the compactor.
    Mr. COLLINS. Did you see a fall off--if there were the 
credits as you talked about that have now expired, what would 
be a typical credit and how much of an incentive was that for 
the municipalities?
    Mr. FELDMAN. Back in the day it was a very large incentive 
to get our business going and to be what I would call a market 
maker. I do not know that I am qualified to answer what impact 
that would have, and so I can defer that question and certainly 
get back to you with an answer.
    Mr. COLLINS. Yeah. I mean, common sense would say 
municipalities are strapped for cash.
    Mr. FELDMAN. They are very strapped. Yeah.
    Mr. COLLINS. So if that came back you would probably sell 
more of those.
    Mr. FELDMAN. Yes.
    Mr. COLLINS. And I think you pointed out the way the laws 
are written, the solar credits, tax credits really, because of 
the unique product, do not apply much to what you are doing?
    Mr. FELDMAN. Correct. Yes, that is correct. Yeah, 
unfortunately. Because we are not connected directly to the 
grid, most of the solar credits go towards if you are putting 
it on your house, for example, or buildings, which are actually 
feeding energy back into the electric system and there are 
credits available for that. In our particular case that does 
not apply which is a shame.
    Mr. COLLINS. Right. Right. Right.
    Now, have you looked at any public-private partnerships 
where somebody would buy these, take the tax credits, if you 
will, whatever they could get, and lease it back to a 
municipality?
    Mr. FELDMAN. We do offer leasing in what we call a managed 
service program, but I am not sure if it is exactly what you 
are asking.
    Mr. COLLINS. Now, do a lot of towns start with two or three 
of these, see how they work, and then expand?
    Mr. FELDMAN. Yeah. Typically in a scenario we will try to 
get 5 to 10. Where the benefit comes in for this particular 
product is density of deployment. To put one in front of city 
hall is nice. The mayor can say, yes, we did it, but what we 
really want is a deployment up and down Main Street or in some 
very congested area, and we like to get a situation where there 
are 5 to 10 or so deployed. We can show the benefit. The truck 
does not have to go there that often. And we can start showing 
the ROI, if you will, on their investment. And that leads to 
the further deployments. Yes.
    Mr. COLLINS. And do they require much maintenance or are 
these----
    Mr. FELDMAN. There is some maintenance. It has a LED-acid 
battery in it, just like your car. You need to change the 
battery. Obviously, they need to be emptied. We recommend 
cleaning, to be power washed and whatnot, to keep them looking 
nice so the public will use them. But beyond that they are 
really built for a 10-year lifecycle.
    Mr. COLLINS. Okay. All right.
    Well, I am intrigued. It is a great product and I certainly 
wish you a lot of success.
    Mr. FELDMAN. As my time winds down, I have got a perhaps 
off-topic question for Mr. McCloskey.
    On many occasions, my wife has opened the garage door, put 
the car in reverse, and crashed into somebody parked behind 
her. Would your braking system prevent that?
    Mr. McCLOSKEY. Well, it is a fair question, Congressman. 
Thank you.
    You are seeing that kind of active sensing deployment in 
almost all automobiles anymore. I think Nissan was one of the 
first automobile makers to lead the way with it, but you are 
seeing that as a sensor deployment in the back of all cars so 
that it will first warn you. And with my wife that might not 
work either. And so then it will eventually stop the car for 
you so you would not hit anything. And really where that 
matters most is not the vehicle behind you but children playing 
behind you in the street or crossing the driveway as you are 
backing out. And so it is good technology and it creates more 
data, which people want to hear about. And there are 
entrepreneurs out there that would like to play with that data.
    Mr. COLLINS. Good. Thank you very much.
    Mr. Chairman, I yield back my last five seconds.
    Mr. LUETKEMEYER. Thank you, Mr. Collins.
    With that, Ranking Member Velazquez.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    Mr. Feldman, your product showcases just how innovation can 
improve efficiency for cities and businesses. I would 
appreciate if you could discuss your experience with the 
regulatory process and how long it took to get your product to 
the market.
    Mr. FELDMAN. Yeah, the regulatory process is cumbersome for 
a small company, and I think small business entrepreneurs who 
are trying to get into and produce a wirelessly connected 
product can really be overwhelmed I think with the amount of 
not only just the paperwork but certainly the certifications 
and the testing that needs to go into it. It would really help 
if there were, when we were starting out, more education or 
resources, online training resources, something that said, hey, 
guys. This is what you are in for. And be prepared it is going 
to cost this much and it is going to take this long. To get 
technical a little bit, but to build a computer board that is 
one thin and you need four layers to it instead of one layer. 
Who knew? And we did not know that going into the whole 
project. So there are a lot of issues with that.
    Ms. VELAZQUEZ. Any thoughts in terms of how the process can 
be streamlined or better improved?
    Mr. FELDMAN. In terms of streamlining it, I would ask for 
more education, online resources as I said.
    Ms. VELAZQUEZ. Mr. West, cybersecurity remains a hot topic 
these days, as we continue to hear about breach after breach of 
store security systems, yet small businesses have limited 
resources and time to give to protecting investment from those 
attacks. How can we assist these businesses to ensure they have 
adequate security systems without forcing them to spend 
excessive resources?
    Mr. WEST. A lot of small businesses do not realize that 
they are at risk because they think they are small, they are 
operating in a limited geographic area, and so therefore, 
people would not be of interest. But what businesses have to 
understand is they sell things, so they have credit card 
numbers. And so their information is quite valuable and they 
are at risk. And so there are a variety of things that they 
should do, some of which do not involve anything to do with 
government. People need to take their security more seriously. 
They need more serious passwords. There have been studies 
suggesting that some of the most common passwords are 12345, 
things like that. So people need to get much more serious about 
cybersecurity.
    We also think there is a role for government in some areas. 
For example, in the data breach area. Right now, it is 
primarily state legislation that handles this, and so there are 
a wide variety of rules and regulations in place across the 50 
states. So Congress might consider a national data breach law 
just to standardize the requirements and make sure that all 
companies are operating along a level playing field.
    Ms. VELAZQUEZ. Thank you.
    Mr. Marshall, while access to broadband has increased in 
recent years, there is some discrepancy in its availability 
between geographic areas. Connectivity is becoming vitally 
important to enabling small businesses to engage in e-commerce 
and will be closely linked to the future success. What efforts 
besides relocating spectrum can be taken to expand these 
services to small businesses?
    Mr. MARSHALL. I really do not know how to answer that 
question.
    Ms. VELAZQUEZ. Anyone--Mr. West?
    Mr. WEST. I am not sure exactly what to say. Maybe I would 
defer to someone else.
    Ms. VELAZQUEZ. No? Okay.
    Well, Mr. West, the FCC has conducted more than 80 
auctions, raising tens of billions of dollars and issuing 
thousands of new spectrum licenses. What makes the upcoming 
incentive auction so unique from previous ones?
    Mr. WEST. What makes the upcoming auction unique is, one, 
we have rising demand, and so there is a greater need for this 
auction to be successful. And then secondly, we are pinpointing 
an industry, the broadcast industry that has unused spectrum in 
trying to create incentives for them to sell to other people. 
It is a very complicated auction because Congress and the NTIA 
and the FCC are having to balance a lot of different things. We 
want money to reduce the national deficit, we want to encourage 
the repurposing of spectrum to higher priority areas. Congress 
is setting aside some of the proceeds for the First Responders 
Network, so it is important to think about how to use that 
auction to maximize each of those goals. It is important to 
promote competition so that small firms have an opportunity to 
bid on the spectrum. So it is very important that this be 
executed properly.
    Ms. VELAZQUEZ. Thank you.
    Thank you, Mr. Chairman.
    Mr. LUETKEMEYER. Thank you.
    With that, it looks like I will ask some questions here.
    Mr. Marshall, farming is a completely different business 
than it was when your dad started out many years ago, and I 
tell people if you want to jump into the cockpit of a combine, 
it will look like the cockpit of an airplane anymore with all 
the dials and all the instruments. It is like quite a panel 
there. This technology is not cheap. You mentioned a while ago 
I think it was $10,000 to fit one of your combines up with 
something. Is that right?
    Mr. MARSHALL. That is correct. For an auto steer system. 
And that is for an economy auto steer system. I have not 
purchased one in over a year, but for the one that was more 
accurate than the current model that I have it was closer to 
$20,000 for one tractor.
    Mr. LUETKEMEYER. I assume that that makes you money, 
otherwise, you would not be doing that.
    Mr. MARSHALL. That is correct.
    Mr. LUETKEMEYER. It makes you that much more efficient that 
it saves you--well, what is the payback? One year, three years, 
10 years?
    Mr. MARSHALL. I do not know what the actual payback is. It 
would depend on the items, too. With something low row clutches 
or shutoffs for a product application rig, the payback is 
fairly quick, especially where we farm where it is a lot of 
small fields that are irregular shaped, having GPS to shut off 
a boom on an application rig or to shut off the row units on a 
planter can pay back very quickly. For auto steer, it is not 
quite as quick, but where we work a lot of hours in the spring 
and in the fall, the reduction in operator fatigue is worth 
quite a bit. I spend a fair amount of hours in a tractor in the 
spring, and having the auto steer there really does help me out 
over the course of a day.
    Mr. LUETKEMEYER. Now, I read an article last night getting 
ready for today with your Farm Bureau president who made some 
points with regards to the data that is accumulated by the 
information and the technology on your combine and on your 
planter with regards to what is planted, what kind of land you 
are planting it on, so therefore, you get an idea of what kind 
of a crop you are going to get in the ground as well as get 
back out of the ground. And there are some concerns about the 
ownership of that data. Would you like to expand on that just a 
little bit?
    Mr. MARSHALL. Sure.
    Mr. LUETKEMEYER. You mention in your testimony it is a huge 
issue.
    Mr. MARSHALL. Yeah, it is a huge issue that is on the 
horizon here, coming up a lot quicker than I thought it was 
going to. And what has changed is that now a lot of that data 
is being uploaded to the cloud, or if it is not, it will be by 
next year. I know that there was a project out this fall where 
they had 1,000 combines running in the field, uploading real-
time data. And it is impressive what can be done. I think it 
has a lot of potential to really do good for the industry. The 
concern that I have, like I mentioned in my remarks, is who is 
going to own that data and what is going to be done with it. If 
you have several combines running across the Midwest at harvest 
time, uploading data every few seconds, that is very accurate 
data. You are getting everything from elevation of the field, 
moisture of the corn, to the yield itself, and if all those 
combines are uploading to the cloud and someone could access 
that, it would have a real ability to move a market. If you 
look at how much time it takes for the USDA to do a survey, and 
even with them being more efficient than they used to be with 
advances in technology, it is nowhere near what we could do 
with this data being uploaded every few seconds to the cloud. 
And how much value does that have to a trader in Chicago or to 
someone else that is interested in markets?
    Mr. LUETKEMEYER. Can you confine that data to your own 
database----
    Mr. MARSHALL. With everyone that is----
    Mr. LUETKEMEYER.--so that you own it yourself and so it is 
not out there for everybody else to have access to?
    Mr. MARSHALL. With everyone that is using online storage 
now that I am aware of, you can opt out of their collection. 
And I am concerned about with what might happen going forward. 
Like I said, this is new. The main purpose is making the 
Committee aware of it. But this data is going to have a big 
value to it. It is important not only potentially to markets 
but to seed companies as well. With the accuracy of that data, 
effectively what I have done just on my farm is I have set up 
what they call side-by-side test plots. Seed companies used to 
pay a lot of money for that. If you take a machinery company 
that is now collecting data from combines, that data that they 
have collected from all these farmers now has a very big value 
to a seed company potentially. It could save them a lot of 
time.
    Mr. LUETKEMEYER. Okay. You brought up a whole lot of issues 
here. Is the Farm Bureau working on answers to this? Are the 
individuals, the companies that have access to information, are 
they working with you trying to find ways to sort of shift 
through this regulatory ownership of data situation here?
    Mr. MARSHALL. Good question. I feel like Farm Bureau has 
been very active in trying to see what their members feel, and 
also talking with industry leaders on it. I have been able to 
talk with some industry officials as well. And again, we are at 
the beginning of this process. I feel like there has been some 
good discussion on it. But again, I hope that everyone is aware 
of how quickly this is progressing along.
    Mr. LUETKEMEYER. So even though we have access to gobs and 
gobs of data, sometimes it causes more problems than it 
alleviates originally, does it not?
    Let me stop there. And we have got a lot of folks who want 
to ask some questions yet today.
    With that, we go to Ms. Chu from California.
    Ms. CHU. Thank you.
    Mr. Feldman, you have quite a story with BigBelly Solar. I 
am ranking member in the Access to Capital Subcommittee, and I 
am very interested to know where BigBelly Solar got funding 
when it started out and whether those sources have changed over 
time. Would you share with the Committee how you got financing 
for your business and what obstacles, if any, did you encounter 
in the process?
    Mr. FELDMAN. Sure. I can reveal a little bit of that.
    We are privately funded, and our founder, Jim Poss, who 
started the company really, mom and dad helped start the 
business. This was really a couple of guys in a garage, you 
know, bolting some solar panels and batteries and chains 
together to work on the product. So that is its inception. 
Through the years one of our largest distributors, Waste 
Management, is an investor in the company, but it is still all 
private money. There is no VC funding at all, nothing of that 
sort. So it is what we consider private money.
    Ms. CHU. Did you encounter any obstacles?
    Mr. FELDMAN. While searching for the financing? You know, I 
cannot answer that. I was not around at the company during that 
timeframe, so I would not be able to answer that.
    Ms. CHU. Okay.
    Well, Mr. West, do technology startups face similar to 
different access to capital challenges compared to brick-and-
mortar businesses? And can you expand on policy recommendations 
for the Committee to improve access to capital for these types 
of companies or if anything, all small businesses?
    Mr. WEST. Startups do face a lot of barriers to getting 
access to capital, especially over the last few years with the 
financial crisis, banks and other financial institutions often 
have been reluctant to take risks. And so oftentimes, in an 
atmosphere when they are not wanting to take risk, the first 
people they cut off are startups and small firms. And this is 
unfortunate because we know that a lot of the innovation, 
especially in the wireless area, takes place from small firms. 
You have small app developers who are creating cool education 
or health-related apps. You have small manufacturing companies 
that may be designing new products or developing new services. 
So we think that Congress should continue the path of the 
Startup Act and try and ease financing for startups. That is 
going to be a major source of innovation. And so you could 
think about expanding credits that are targeted specifically on 
small firms with say under $5 million in revenue. So it is a 
highly targeted type of thing. You could also target small 
firms that are new, meaning firms that have existed for less 
than five years. So those are a couple ways that Congress might 
make rules changes that would help startup firms.
    Ms. CHU. Mr. McCloskey and Mr. West, while venture 
capitalists see the mobile app sector as the next big thing, 
the regulatory uncertainty has caused hesitancy by these 
investors, can you elaborate on why these investors are 
critical to the wireless industry and how continued regulatory 
delay has hindered its growth?
    Mr. McCLOSKEY. Sure. And thank you for the question.
    I guess I would start with the level playing field. So a 
lot of app developers want to give you an easy way to consume a 
service, whether it is a parking service or a navigation 
service, some way in your transportation lifestyle to move 
around. And to do that they need data about the transportation 
environment, and that data is very hard to come by. It is 
highly inconsistent from jurisdiction to jurisdiction. The 
policies in each of the jurisdictions on what is collected, how 
long it is kept, who has access to it and for how long, is as 
different as night and day from one jurisdiction to another. 
And so from an investor perspective they do not have that 
runway of capital investment that says if I invest here then I 
can prosecute multiple markets with a single investment. And 
without that access to data that is really the public's data 
anyway because it is being collected by a public agency, 
without some clarity around that there are impediments in the 
system.
    Ms. CHU. Mr. West?
    Mr. WEST. So mobile designers and manufacturers do complain 
about regulatory uncertainty and how that creates problems for 
them. And I can give examples in the healthcare area because 
the Food and Drug Administration has just gone through a 
process to try and ease that uncertainty. There are a wide 
range of new apps and devices in the healthcare area. You have 
mobile apps that bring information to consumers to try and help 
them get more informed about healthcare. You have wearable 
devices. People exercise and a device will keep track of their 
number of calories they burn while exercising. And then you 
have more elaborate devices that physicians and hospitals are 
starting to deploy that might track someone's sugar levels or 
vital signs or heart rhythm and electronically transmit that.
    And so right now it has been difficult to get certainty in 
terms of what devices are subject to FDA regulation. So over 
the last year the FDA has gone through this process. They have 
put a wide range of devices into one of three categories--
either devices that are not going to be subject to FDA 
regulation, those that definitely are, and then this middle 
category of enforcement discretion where the FDA indicated it 
was not likely to regulate unless there was some demonstrable 
threat or problem that popped up with a specific device.
    So I think that is an example of where government can be 
helpful to private industry just by trying to clarify what the 
rules are, who is subject to regulation, and under what 
conditions are they going to be regulated.
    Ms. CHU. Thank you. And I yield back.
    Mr. LUETKEMEYER. Thank you.
    Mr. Chabot?
    Mr. CHABOT. Thank you very much, Mr. Chairman.
    This morning, INC. Magazine featured an article online 
listing the eight best startup industries. Almost all of these 
industries are technology-based, and five of the eight depend 
on wireless technology and the infrastructure that supports it. 
So I would like to thank the chairman for hosting this timely 
and important discussion. I expect it will not be the last time 
that this Committee sits down to examine the topic.
    My question for the panel is simply how do we as a nation 
put ourselves in the best position to continue to capitalize on 
the wireless revolution? I understand there is no magic recipe 
for success, but in your opinions, what objectives should this 
Committee and the Federal government set so that every day we 
are working towards the goal of job creation and supporting 
small businesses that utilize the technology that we have been 
discussion to grow our economy. If you just want to go down the 
line and just take a moment or as much time as you would like, 
that would be fine.
    Mr. Feldman, would you like to start?
    Mr. FELDMAN. Sure. I would be happy to.
    I think as a nation and as a government, it is probably 
obvious, not to stranglehold the entrepreneurs. Make them feel 
like the broadband and the access to the wireless technology 
should be there and available. Instead of broadband I actually 
meant bandwidth for the data. A lot of these startup companies, 
a lot of us are looking at ways of getting video technologies 
and all the video streaming. This hearing itself is being video 
streamed across the Internet. And people who are on their cell 
phone that want to watch this hearing, we need to make sure 
that there is that bandwidth available to do that.
    Mr. CHABOT. I am sure there are millions and millions of 
people glued to their screens.
    Mr. FELDMAN. This is riveting.
    But I think in some senses it is a very fine balance in my 
mind of the government helping and the government staying out 
of the way. And I am not sure where that line is. I am not 
qualified to answer that particular question. But there 
certainly, as we talk about spectrum and how to reuse it, we 
ourselves are right now a victim of the 2G network that is 
being shut down in the country by one of the carriers. And that 
is going to be a financial burden to us as a small company. We 
have to now go out and visit all of these trashcans and upgrade 
the internal computer on them to get onto at least the 3G 
network, not the 4G. And that is a burden. And so anything we 
can do to help alleviate that I think is a step in a positive 
direction.
    Mr. CHABOT. Thank you.
    Mr. Marshall?
    Mr. MARSHALL. I do not know how well I can address your 
question. I will just make a few observations from where I am 
from.
    When I started farming full-time, one of the first things I 
wanted was good Internet access. And I tried three different 
satellite Internet companies before I got one that worked 
respectable. The first one was extremely high maintenance. The 
second one was moderate improved. And the third one was decent. 
We do now have fiber in our area, but I am one of few that has 
access to that fiber out where I live. And it has been a 
tremendous improvement over the satellite Internet. It does 
make a big difference for how I run my small business to have 
good Internet access.
    Same thing with cell phone coverage. If I am driving on 36 
Highway, which is a four-lane highway, from my house over to 
St. Joe, several times on that route I lose cell phone 
coverage. And so all I can perhaps say is that I would 
encourage you to, of course, have favorable regulation as Mr. 
Feldman has mentioned, and hopefully not have excess 
regulation.
    Mr. CHABOT. Thank you.
    Mr. McCloskey?
    Mr. McCLOSKEY. Thank you for the question, Congressman.
    I would add two things. One is you asked about spectrum, 
and I think everyone on the panel would agree that access to 
network is important. There are also spectrum allocations today 
from the FCC for the safety services that the automotive 
industry is relying on, the 5.9 gigahertz range. And there has 
been a good bit of talk in the industry about sharing that 
spectrum. So I would say two things. One is there has been very 
little technical work on how sharing would really work in 
practice, and so some good detail work around that to provide 
clarity would be a good investment of time, but I would also 
suggest that allowing the safety services to mature, because if 
we have 30,000 odd deaths on the road here every year and 
hundreds of thousands worth of injuries, the technology as 
forecasted by the Department of Transportation to reduce up to 
80 percent of the traffic incidents that might be caused by 
unimpaired drivers. And so to take that incident off the road 
has tremendous benefits in congestion, which then benefits the 
entire economy. And so I would encourage us to go slowly in 
this concept of sharing certain elements of the spectrum that 
have been allocated for safety.
    The second point I would make is that--and I think Mr. 
Marshall would share my opinion here--is that there should be 
some clarity around data. Once the data is collected there 
should be some participatory way where the industry may lead 
but is encouraged by government in order to provide access to 
data for businesses that want to grow, while also maintaining 
anonymity for those who would contribute that data into the 
study.
    Mr. CHABOT. Thank you very much.
    Mr. Chairman, I would ask unanimous consent if we have time 
for Mr. West to answer the question.
    Mr. LUETKEMEYER. Absolutely. Go ahead.
    Mr. CHABOT. Thank you very much.
    Mr. West?
    Mr. WEST. Thank you very much.
    So at Brookings, we have a Center for Technology 
Innovation, and we very much support a pro-innovation agenda. 
And there are three particular points I would emphasize in 
response to your question. One, the need for infrastructure 
improvements. The world is going mobile, and so we need faster 
speeds. We have new innovations in healthcare, energy, 
transportation, and otherwise that are going online and going 
through mobile networks. And we are going to need more 
broadband and faster speeds to take advantage of those.
    The last thing I will emphasize is the importance of 
encouraging more universal access to the Internet. We still 
have many Americans who are outside the technology revolution, 
who for various reasons are not making use of mobile devices 
and/or accessing the Internet. And so we need to think about 
digital literacy programs to encourage them to get online and 
take advantage of the services that are available. Part of it 
is addressing cost considerations, and also letting them know 
some of the benefits that would avail to them.
    Mr. CHABOT. Thank you very much. My time is expired. I 
yield back, Mr. Chairman.
    Mr. LUETKEMEYER. Thank you.
    Mr. Payne from New Jersey?
    Mr. PAYNE. Thank you, Mr. Chairman.
    I would like to thank all of the witnesses today for their 
testimony.
    Just a couple things in general before we start.
    Mr. Feldman, I believe, and correct me if I am wrong, but 
BigBelly has a fairly decent presence in Jersey City, New 
Jersey?
    Mr. FELDMAN. We do. Yes.
    Mr. PAYNE. And that was through a federal grant?
    Mr. FELDMAN. That was one of the EECB grants; correct.
    Mr. PAYNE. Based on prior, I was not sure.
    There was quite some pride in my district when they were 
available, so we thank you for that.
    Mr. FELDMAN. Thank you.
    Mr. PAYNE. And Mr. Marshall, in terms of the size of your 
farm, we have just gone through the farm reauthorization and 
some of these definitions of big farms or small farms. I hear 
you talk about three tractors. What size is your farm in 
acreage?
    Mr. MARSHALL. We have 4,200 acres of row crop. I would 
consider us to be a medium-size farm now.
    Mr. PAYNE. I want to write that down for next year. Medium.
    Mr. MARSHALL. As a youngster, I am from Newark, New Jersey, 
but my mother was from Dinwiddie County, Virginia, and when 
people thought I was going for summer retreat, I was actually 
going to work. I cut tobacco as an 8-year-old and shucked corn 
and milked cows. And everybody would say, ``Oh, how was your 
vacation?'' And I would show them my hands. I just wanted to 
get an idea based on what you were talking about what size your 
farm was.
    I am also on Homeland Security, and I am very interested in 
these kinds of technologies that are being discussed. I am the 
ranking member on Communications and Response, Emergency 
Preparedness. I introduced a smart grid bill which deals with a 
study of the electrical grid across the country and seeing 
steps to make it more resilient and where we need to upgrade in 
certain areas. And I am glad to say that it was amended and 
added to the cybersecurity bill that just came out of Homeland 
Security. So we have seen, and because of that, you know, my 
experience with natural disasters like Hurricane Sandy, we see 
how it can devastate our power grid and expose us to cyber-
attacks and even harm small businesses.
    I would love to hear your thoughts on specific technologies 
we can use in the face of natural disasters and other 
devastating events. Mr. West?
    Mr. WEST. We actually did a panel at Brookings last summer 
on natural disasters and the role that technology can play, and 
we had people from the Red Cross and some academics who studied 
and so on. And what we learned is that mobile technology 
increasingly has become part of the way we are dealing with 
natural disasters. That after they hit, that sometimes cell 
phones and smartphones are the primary way that people access 
information. It is the way both organizations like the Red 
Cross, as well as government organizations get information that 
allows them to allocate resources so they can get the help to 
the people who need it in a timely manner. We also discovered 
that social media networks are becoming a big part of the 
problem. That people now use social media to communicate all 
sorts of needs, and during natural disasters, that has become a 
tremendous source of information. So we have to figure out ways 
to do the data analytics so that we can mine that information 
in a very productive way.
    Mr. McCLOSKEY. If I could, I would like to add that Japan 
learned recently after the tsunami and the Fukushima disaster 
that they could use their version of the safety network that 
the Department of Transportation announced two weeks ago that 
it was moving forward with. That is fairly well deployed in 
Japan at this point. And the challenge with a disaster is that 
when it occurs, everybody goes to their mobile. They want to 
call their family. They want to let people know they are okay. 
They want to check on things. And so the network gets 
congested. It floods. And what they found in Japan was that 
with the safety network there is a feature of the technology 
that allows them to suppress all the other traffic, and then 
the first responders could use that underlying network as a 
means of communication for the first responder community. And 
what I would like to point out by way of that example is that 
wireless networks are not about one giant network where all the 
video that you want can be downloaded to it. What you really 
want are lots of wireless networks of different features 
because then if something happens to one you have other access 
avenues in order for the communication to occur.
    And so I would encourage you when you think about wireless 
networks, it is not just the services we get when we sign up 
for AT&T phones and our Verizon phones, but it is also the 
myriad ways that communication is occurring out there and we 
want them all to be available, whether it is a good event or a 
bad event.
    Mr. FELDMAN. If I could add also something in there. 
Probably not as much a natural disaster but as a result of the 
Boston Marathon bombings last April, in response to that a 
little backdrop. The BigBelly is bolted to the street. It does 
not move. And it has a handle that you open up and deposit your 
trash in, which is a very safe system because it does prevent 
large objects from getting in the BigBelly. But there is a 
concern, of course, with any trashcan at any public event that 
terrorist actions or just whomever may deposit explosive 
devices.
    In response to that event, we have developed a system on 
the BigBelly, in fact, where you can lock that BigBelly and be 
notified wirelessly to the security personnel or the police 
that there has been a breach of that trashcan. So, in fact, we 
can say this is closed for the event, and it goes into a 
special mode, if you will, where if someone opens that door or 
attempts to breach that BigBelly, it will notify somebody and 
they will get it on their cellphone, mobile phone, and back at 
the command center for immediate response. So that is something 
that we have tried to use, the wireless for ourselves, in 
response to some of these events that are happening. You cannot 
get away from it.
    Mr. PAYNE. Thank you, Mr. Chairman.
    Mr. LUETKEMEYER. Thank you.
    That concludes the first round. We will go with the second 
round, and I think we have got just a couple folks that want to 
do that. So if you will indulge us, panel, you are doing a 
great job.
    Ranking Member Ms. Velazquez.
    Ms. VELAZQUEZ. Thank you.
    Mr. West, the FCC has several options available in 
designing the upcoming auction, and I would like to ask you, 
one issue that still needs resolution is whether to make it 
open or restricted. In terms of small businesses, what do you 
think is the best option?
    Mr. WEST. What we recommend on the auction is a balanced 
approach in the sense that you need the benefits of both open 
and closed. We feel that all of the businesses, including the 
large players, like AT&T and Verizon, have a right to compete 
and to bid on the auction, but there also is an interest in 
encouraging small firms to have a fair shot at it. So there are 
ways to try to balance the needs of large and small firms in 
this regard. So you can think about putting restrictions on the 
number of licenses that say the largest companies could bid on, 
or you could think about a cap in terms of the overall 
holdings. So that is a way to kind of think about encouraging 
competition but still allowing the large firms to bid because 
we are trying to get $27 billion from this auction, and so you 
need the large firms there because they have the deep pockets, 
but we also want to help the small firms and make sure they 
have a fair right to compete.
    Ms. VELAZQUEZ. Any other comments?
    Thank you, Mr. Chairman.
    Mr. LUETKEMEYER. I think Mr. Payne has one follow-up as 
well.
    Mr. PAYNE. Thank you, Mr. Chairman.
    Mr. West, in what ways are these new technologies creating 
new markets and attracting unlikely entrepreneurs? And how can 
these technologies benefit or attract entrepreneurs and small 
business owners from low-income backgrounds?
    Mr. WEST. The wireless space is very vibrant and dynamic, 
so almost by definition it is a great sector in terms of 
attracting unconventional firms or people who you might not 
expect to play a role. Because, for example, it does not take a 
lot of capital or infrastructure or organization to develop a 
mobile app, but you could develop an app that could be very 
valuable. We do need to make sure that everybody has a fair 
chance of playing in this area, and certainly, we want people 
from diverse backgrounds to be able to access capital, develop 
products, design things. We think there are long-term things, 
like putting money into the STEM fields that would encourage 
women to go into those areas as well as minorities. So there 
are both kind of short and long-term things that we think would 
make a difference in that area.
    Mr. PAYNE. Anyone else? No?
    Thank you, Mr. Chairman. I yield back.
    Mr. LUETKEMEYER. Thank you.
    I do not have any follow-up questions. Just some 
observations very quickly.
    We are talking today in our Committee hearings about 
building on the wireless revolution: opportunities and barriers 
for small firms. I think we have got three great examples here 
of opportunities that were not available probably 10, 15, 20 
years ago, that technology has enabled us to make our lives 
better from making it more efficient, saving dollars, saving 
lives. We save lives with some of those things that Mr. 
McCloskey talked about. So it is a wonderful thing, but each of 
you have pointed out some problems, things that we have to be 
careful, whether it is data we have to worry about or potential 
on the spectrum to make sure we allow small guys to be able to 
participate. Those are some of the things we have to think 
about here, and hopefully we will have some thought on this and 
we can make some suggestions.
    But with that I will conclude by saying thank all of you 
for being here today. You guys did a great job. I appreciate 
your testimony. It has helped us to better understand the 
opportunities and barriers of this emerging industry. Your 
products and all the things that you do hold great promise for 
economic development and job creation across our country. I 
look forward to working with my colleagues to ensure that 
federal policies do not obstruct the continued growth 
innovation because you are the entrepreneurs. We want more 
folks here next year, next week, on the same panel telling us 
lots of great stories about things they are able to do with 
their products and their inventions and make lives better for 
all of us.
    With that, I ask unanimous consent that members have five 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    This hearing is now adjourned.
    [Whereupon, at 2:16 p.m., the Committee was adjourned.]


                            A P P E N D I X


                              Testimony of


                            Michael Feldman


                     Vice President of Engineering


                          BigBelly Solar, Inc.


                      Committee on Small Business


                     U.S. House of Representatives


                  Building on the Wireless Revolution:


               Opportunities and Barriers for Small Firms


                           February 11, 2014

    Chairman Graves, Ranking Member Velazquez, and Committee 
Members. I am excited to have this opportunity to share with 
you how BigBelly Solar uses wireless technology to help curb 
the usage of our natural resources and help improve our 
environment.

    My name is Michael Feldman and I am the Vice President of 
Engineering at BigBelly Solar. BigBelly Solar was founded in 
Newton, MA with the mission of reducing CO2 emissions from gas 
hungry garbage collection vehicles by eliminating unnecessary 
miles driven. A standard garbage truck gets 3 miles per gallon 
and travels an average of 25,000 miles per year. Each truck 
emits an estimated 100 tons of CO2 per year. In the United 
States alone, with an estimated 180,000 garbage trucks 
traveling the roads, they collectively consume over 1 Billion 
gallons of oil contributing 18 Million Tons of CO2 into the 
atmosphere each year. That is the equivalent usage of an Exxon 
Valdez oil spill every 4 days. And this does not include the 
congestion and nuisance they cause amongst our city streets and 
roadways. By reducing, or even eliminating, unnecessary driving 
miles we can significantly cut into the emissions emitted. And 
this paradigm works even if the vehicles use alternative fuel 
technologies. As we like to remind people, the cheapest and 
cleanest mile is the one never driven.

    Manufactured in Lexington Kentucky, The BigBelly Waste and 
Recycling System provides a unique combination of information 
technology software and on-site compaction at public space 
locations where citizens deposit their trash and recyclables. 
By compacting the waste, which increases storage capacity, we 
are left with a trash can that does not require emptying as 
often. In fact, the BigBelly compacts at a ratio of up to 5 to 
1 which is equivalent to storing five 30 gallon bags of trash 
into one bag. The BigBelly is capable of holding 5 times more 
waste and is more intelligent than traditional trash cans. This 
has been shown to reduce collections on average from twice a 
day to approximately once every other day. Furthermore, 
utilizing solar energy to power the compaction mechanics allows 
a BigBelly to be placed virtually anywhere without the need to 
connect to the electric grid.

    BigBelly has been an early champion and recognized leader 
in the growing Machine to Machine (M2M) marketplace. This 
industry is aimed at connecting devices together all around us, 
and providing useful data for humans to make intelligent 
decisions. A significant part of the BigBelly solution 
incorporates wireless technology to transmit data from the 
trash receptacles to a central database for processing. Users 
of the system access this data from a simple and easy to use 
WEB Application that provides important information including 
which cans need to be emptied, historical reports and 
analytical reports. There is even a mobile application for 
smartphones and tablet devices that allow users, such as 
supervisors and collection personnel, to get up to the minute 
information about the BigBelly's on their streets. The 
technology used is very similar to that found in modern call 
phones today, only instead of calling another person, the 
BigBelly calls another machine.

    Today, you can find a BigBelly in every state in the US, 
and over 40 countries around the world. Our product can be seen 
in cities and towns both large and small, colleges and 
universities, military bases, national parks and government 
agencies. Each BigBelly trash compactor is equipped with a 
series of electronic sensors, solar panel, a battery, and an 
internal computer. The solar panel is used to keep the battery 
charged which drives the compaction mechanisms. A compaction is 
triggered when the trash level inside the bin crosses a senor 
beam. As more waste is deposited, this process continues until 
the internal computer determines the bin is full. The computer 
will then use the wireless network to transmit the fullness 
data to a central computer system, where users can see that the 
bin requires service. The central system can even be configured 
to send an e-mail to users for real time updates. We are 
pioneers in the notion of Smarter Cities--leveraging 
technologies and information to better manage resources. Trash 
cans have never been smarter. Example images of our WEB 
Management Console can be seen on the last pages of this 
testimony.

    Typically, early in the morning, the Waste Operations 
department will get a report from the central WEB application 
system that identifies which BigBelly's need to be emptied. 
These reports are then provided to the truck drivers. In this 
scenario the trucks only visit those locations that require a 
collection as opposed to driving up and down every city street, 
stopping at each waste receptacle. For some of our customers, 
such as the National Parks, no one needs to be sent to remote 
areas until it is necessary. The results are measurable and 
tangible savings in time, fuel and resources.

    Efficiency in collection operations vary by customer and 
usage. After the first year the City of Philadelphia deployed 
the BigBelly System, they estimated a savings of $850,000.00 
and moved 11 employees to service a new public space recycling 
program. The program has been a revenue source to the city by 
diverting trash from costly landfills. Instead, the recyclables 
are sent to processing centers where the city is paid per ton 
of material. This fundamental shift has transpired with many of 
our customers.

    Like all small businesses, we are not without our share of 
challenges. As a member of a unique club of American businesses 
that are ``market makers'', those who venture into uncharted 
territory, we need help and assistance to overcome some of 
these challenges. As a small privately funded company of 40 
employees, our available financial resources are stretched thin 
placing this technology on the streets and pushing its 
adoption. For any business wishing to connect wireless devices, 
there are specific rules and regulations in place by the 
telecommunications industry requiring costly certification, 
upwards of $30,000, before they will allow new devices to 
connect to their network. While we certainly are in full 
agreement and have no issue with the intent and protection the 
carriers require, in many instances, these rules and standards 
are mostly aimed at cell phones, smartphones and tablet style 
devices. Not for M2M devices such as the BigBelly. After all, 
you cannot hold a BigBelly up to your ear!

    Similarly, federal assistance for Energy Efficiency 
Community Block Grants, or EECB grants, has run out. This is 
most unfortunate as it enabled municipalities to participate in 
new green products such as BigBelly that have proven rewards 
not only to the town's balance sheets and budgets, but to the 
environment as well. Past recipients of EECB grant money used 
to subsidize the purchase of a BigBelly system include 
Philadelphia, Albany NY and Jersey City. Your sponsorship, 
endorsement and legislation assisting environmental and 
technology products like BigBelly, and creating new or similar 
program such as the EECB, will benefit all Americans.

    There are of course other barriers to adoption. For 
example, cash strapped cities and towns are unable to apply for 
and receive Solar Energy credits for the deployment of a 
BigBelly System. As explained earlier, our use of wireless 
technology allows the BigBelly product to operate out of the 
prevue of the electric grid. However Solar Energy grants only 
apply to products that connect to this grid. Given the positive 
dollar savings, environmental and economic impact this class of 
product has, we ask the committee to research and investigate 
how these solar credits are disbursed and to implement changes 
that could incorporate new solar technologies like BigBelly 
that would enable your cities and towns to receive these 
credits.

    And we know firsthand these programs work. For example, the 
Federal Transit Authority has the ability to assist local 
Transit Authorities by issuing Formula Grants, or 5307 Grants. 
Under this program, a BigBelly qualifies as an ``amenity'' 
which enables local transit systems to deploy BigBelly's at bus 
stops or rail stations. Without EECB assistance, the City of 
Philadelphia would not have the deployment and budget impact 
they see today. These programs are of significant value to the 
local communities as well as small businesses like BigBelly. We 
ask for your assistance in helping to legislate funding for a 
cleaner environment.

    In closing, I would again like to thank the members of the 
Small Business committee for allowing me this opportunity to 
present the BigBelly Solar story, and provide insight into how 
we are using wireless technology to save real budget dollars, 
resources and most importantly make a tangible impact on the 
environment.

    Respectfully submitted,

    Michael Feldman.

    [GRAPHIC] [TIFF OMITTED] T6640.001
    
    [GRAPHIC] [TIFF OMITTED] T6640.002
    
    [GRAPHIC] [TIFF OMITTED] T6640.003
    
    Chairman Graves and Ranking Member Velazquez, Members of 
the Committee: Thank you for the opportunity to testify on 
behalf of the American Farm Bureau Federation and the Missouri 
Farm Bureau Federation. I am here today to discuss how the 
advancement of technology is affecting modern agriculture.

    I own and operate a farm about an hour north of Kansas City 
in Maysville, Missouri. Both of my grandfathers farmed in the 
Maysville area as does my father today. In fact, while I am 
here before you, Dad is fighting the cold and snow to get our 
farm work done, just like he does every day regardless of the 
weather. My wife, Kelly, and I farm with my parents, raising 
waxy corn, soybeans, wheat and cattle. It gives me a sense of 
pride to be farming the same land that my parents and 
grandparents did. My wife and I are happy to be raising a 
little boy who loves everything to do with farming and a little 
girl who loves everything that's pink.

    I am excited to share with you how my father and I are 
incorporating new technologies into our day-to-day operations. 
I will also offer perspectives from my fellow Farm Bureau 
members developed through our organization's recently completed 
annual policy development process. Our new policies regarding 
``big data'' and unmanned aircraft systems (UAS), as well as 
our rural infrastructure, are relevant to today's discussion.

    After graduating college I worked for a while as a manager 
for a construction company before returning to the farm when 
the opportunity to join our family operation arose. While I did 
not envision being the new ``tech guy,'' that role has become a 
large part of my responsibility as our farm, and our use of 
technology, has grown. A couple weeks ago, I spent a day trying 
to fix a problem I was having downloading data from our combine 
to my computer. As a young man 20 years ago, that is not how I 
envisioned working on the farm. While this wave of cutting-edge 
tech equipment for farming does sometimes have drawbacks, it 
has ushered in a new world of benefits that outweigh those 
complications.

    I do want to be clear that no matter how advanced a new 
program or system is, or how accurate a touted device may be 
today or even years from now, technology cannot take all of the 
risk out of farming and ranching. Expensive equipment, adverse 
weather, volatile global markets and changing regulations are 
simply part of the life we lead.

    On our farm we use Global Positioning System (GPS) on 
several pieces of equipment to handle a multitude of different 
functions. The application rig we use to apply crop protection 
products is equipped with auto steer. This feature is not new 
to agricultural equipment, but is a great help with this 
particular piece of machinery. Allowing a computer to guide the 
machine increases accuracy, reduces operator fatigue and allows 
me to more closely monitor its performance. Our new application 
rig is also equipped with the AIM Command system, a new method 
of application that uses pulse width modulation and computer 
assistance to manage flow and droplet size specific to the 
product being applied. This ensures a consistent pattern will 
be maintained at any speed and the chances of offsite 
application are greatly reduced. It also decreases operator 
errors. On our rig the computer turns the tips on and off based 
on the GPS signal, ensuring the product is applied where 
needed. This upgrade paid for itself in the first year through 
reduced input costs.

    The most important piece of equipment on our farm is the 
planter because it is very difficult to fix a poorly planted 
crop, although Mother Nature gives us a ``do over'' from time 
to time. We use a lot of products manufactured by the company 
Precision Planting. We have added aftermarket parts, such as 
precision monitor to track everything from seed placement to 
the amount of force used to put the seed in the ground. In most 
of our corn fields, we typically plant around 30,000 seeds per 
acre. If even one of those seeds is planted too close to 
another, my monitor will alert me, identify in which of the 16 
planter rows it occurred and exactly when it happened. I also 
have an iPad synced to my planter monitor running software that 
allows me to do real time mapping and data analysis in the 
field.

    When any farmer plants in an irregular shaped field, the 
potential for over-planting increases. As planters have 
increased in size, so too has the potential for overplanting. 
To reduce this potential, we equipped our planter with point 
row clutches. The point row clutches rely on a GPS signal to 
shut them off whenever crossing into any part of the field that 
has already been planted. Not only does this save seed cost, 
but it helps eliminate yield loss from plant overcrowding in 
double planted areas.

    Three of my tractors are equipped with auto steer. At 
$10,000 per machine for an economy system, it is not cheap to 
put auto steer on a tractor. All of the technology we have 
discussed did require a sizable investment. But we have 
determined that the benefits outweighed the costs. We feel that 
the reduction in inputs as well as operator fatigue alone pays 
for these investments. The same may not be true for our 
neighbor down the road and certainly not for every farm or 
ranch.

    For years, farmers have used technology advances to better 
match varieties of seeds, production inputs and management 
practices with specific field characteristics. Additionally, 
many farmers have had the ability to map yields with a GPS 
receiver. While farmers have been experimenting with this 
technology for well over a decade, only now is the industry 
starting to consider all the use of this transformative 
technology.

    Agribusiness firms are offering and designing 
``prescription'' type services for farmers, enabling them to 
apply seed and fertilizer in varying amounts across their 
fields using the technology I described earlier. Just recently, 
Dad and I met with an agronomist to discuss prescriptions for 
our farm. Many farms across the Midwest have soil types and 
yield potential that vary widely; our land is no different. 
With the technology available today, we can merge 10 years' 
worth of data to get a more complete picture from which to make 
management decisions.

    We have maps generated by our planter, yield maps from our 
combine, and advanced Light Detection and Ranging (LIDAR) soil 
maps that we can now combine to generate useful prescriptions 
for maximizing yield and reducing inputs. If a yield map shows 
a soil type with a lower yield potential, the prescription can 
then call for a lower seeding rate and less fertilizer in that 
management zone. Similarly, if the LIDAR elevation map shows 
the lower ground is more productive, we can increase the plant 
population in those zones.

    It is the combination of these different maps that is 
leading to new breakthroughs. Mini weather stations and weather 
services with field specific data will only help to improve the 
accuracy of prescriptions as we go forward. The ability to 
overlay data from our planters with data from our combine is a 
very recent development. This one advancement has given us a 
wealth of farm specific information that can now be generated 
in the combine. Ten years ago it took careful planning and a 
support team with specific in-field scales to tediously test a 
few acres and generate only a fraction of the data we can have 
instantly in our combines today. This will lead to increased 
yield as farmers and agronomists now have better tools for 
selecting the corn and soybean varieties best suited for each 
individual farm.

    This use of an individual farmer's data to design a 
different program for each acre in a field that may span 200 or 
more acres will augment the farmers' years of experience with 
satellites and algorithms. The new technology undoubtedly will 
help make farmers more efficient and allow the use of fewer 
inputs while increasing their overall level of outputs and 
profitability. While companies have collected and analyzed 
agronomic, yield and other farm level data for some time, the 
amount of real-time information gained at a micro-level unit is 
a big change that has largely taken place within the last two 
years and is of concern to our organization.

    Several agricultural equipment firms have introduced 
technology whereby the data from combines is uploaded every few 
seconds to the Cloud. If a large agribusiness firm had access 
to real-time information from 1,000 or more combines randomly 
spread across the Corn Belt, that information would be 
extremely valuable to traders dealing in agricultural futures. 
Traders have traditionally relied on private surveys and U.S. 
Department of Agriculture (USDA) yield data. These yield 
estimates are neither timely nor necessarily accurate. But now, 
real-time yield data is available to whoever controls those 
databases. Virtually every company says it will never share, 
sell or use the data in a market-distorting way--but we would 
rather verify than trust.

    From Farm Bureau's perspective, one of the most important 
issues related to ``big data'' goes directly to property rights 
and ``who owns and controls the data'' (Attachment 1). The 
risks to privacy that the farmer faces, such as his pesticide 
or GMO usage that may be an accepted practice but politically 
unpopular, are of great concern.

    In addition, a farmer's information is valuable to the 
companies, so farmers should have a say in and be compensated 
when their data is sold. Farmers need to protect their data and 
make sure they bargain wisely as they share their data with 
suppliers and companies who desire access to their information.

    Farmers are rightly concerned about data privacy. Even if 
an individual operator does everything to the best of his 
ability, following all the applicable rules, regulations, and 
best management practices, there is still concern that the 
Environmental Protection Agency (EPA) or one of the numerous 
environmental organizations that plague agriculture might gain 
access to individual farm data through subpoenas or an overall-
clad Edward Snowden type.

    Related to this issue, Farm Bureau supports the use of 
unmanned aircraft systems (UASs) for commercial purposes 
including agriculture, forestry, and other natural resources 
uses (Attachment 2). As the law stands now, if I wanted to hire 
someone to scout my crops with a UAS, they would be subject to 
the same FAA regulations as a commercial jet. Requiring a UAS 
to have a tail number may be a bit excessive in my personal 
opinion.

    Our organization believes the operator of an UAS should be 
required to gain the consent of the landowner and or farmer if 
the UAS will be surveying or gathering data about the 
landowner's property below navigable airspace. We oppose a 
federal agency using UASs for the purpose of regulatory 
enforcement, litigation,, and as a sole source for natural 
resource inventories used in planning efforts or surveying and 
gathering data without the consent of the landowner and or 
operator below navigable airspace.

    The future is truly exciting in terms of technological 
advancement in agriculture, but we should not overlook the gaps 
that exist, particularly in rural areas.

    High-speed broadband services have great potential for 
expanding business, healthcare, and education opportunities in 
our communities. According to the Federal Communications 
Commission's (FCC) Broadband Statistics Report,\1\ the 
broadband availability gap between urban and rural areas 
nationwide is narrowing (100 percent available in urban areas 
versus 94.2 percent available in rural areas). In 2012 my 
county, DeKalb, ranked 87th out of 114 counties (plus St. Louis 
City) in terms of broadband speed greater than 25 Mbps and 
2834th out of 3234 U.S. counties and territories.\2\
---------------------------------------------------------------------------
    \1\ http://www.broadbandmap.gov/download/reports/national-
broadband-map-broadband-availability-in-rural-vs-urban-areas.pdf
    \2\ www.broadbandmap.gov/rank

    Until last fall, we had tried three different satellite 
Internet providers. The last one was fair at times, but the 
first two were awful--high maintenance, high cost and low 
speed. We now have high speed internet through our rural 
electric cooperative's fiber-to-the-home network, a project 
made possible through federal loans and grants. The added 
competition in our area helped us find an Internet package that 
---------------------------------------------------------------------------
better fits are needs.

    The switch from analog to all-digital television in 2009 is 
another issue that continues to impact rural residents. On its 
website, the FCC describes Digital Television (DTV) as an 
``advanced broadcasting technology that has transformed the 
television viewing experience.'' I believe that most people in 
my hometown would agree that their TV viewing experience 
certainly changed, but not for the better. Even with a digital 
converter box and an antenna, only one broadcast station in St. 
Joseph has a signal strength rated as ``moderate.'' St. Joseph 
is about 40 miles from our farm. No stations in Kansas City, 
about 70 miles southwest of Maysville, have signal strength 
above ``weak.'' (Attachment 3).

    This is the reason farmer and rancher voting delegates at 
the Missouri and American Farm Bureau Federation annual 
conventions adopted policy urging the FCC to examine ongoing 
problems resulting from the analog to digital conversion and 
work with broadcast stations to ensure the continued 
availability of free local programming.

    Cell phone reception continues to be a problem in rural 
areas even though wireless companies have made strides in 
expanding service. I frequently travel 36 Highway, a four-lane 
road that runs east to west in northern Missouri, and always 
lose reception and drop calls even though I have service with a 
large carrier and multiple companies have towers along 36. Our 
organization supports the FCC working with cell phone companies 
to increase interoperability among towers.

    I find it ironic that I can upload yield data in real-time 
from my combine to the Cloud as I am picking corn yet it is 
difficult to watch local programs on my television or have a 
cell phone conversation in certain spots in my area. I hope the 
committee will share these concerns with the FCC since they 
affect farmers and other small business owners in rural areas.

    As I have learned by attending county Farm Bureau board 
meetings and young farmer conferences, what works on my farm 
may not necessarily be feasible for my neighbor. America's 
farms and ranches vary in size and scope, and farmers need a 
variety of tools in the toolbox. I do not expect you to share 
my level of enthusiasm for pulse with modulation or point row 
clutches, but I hope you are excited about farmers' use of 
technology to increase efficiencies, better manage inputs such 
as fertilizer and ultimately help us better serve consumers 
from my hometown to Brooklyn, New York.
    Attachment 1: American Farm Bureau Federation (AFBF) 
proprietary data policies as adopted by voting delegates at the 
95th Annual Meeting held January 2014.

    1. Proprietary data collected from farming and agricultural 
operations is valuable, should remain the property of the 
farmer, and warrants protection.

    2. We support:

    2.1. Efforts to better education farmers and ranchers 
regarding new technology or equipment that may receive, record, 
and/or transmit their farming and production data;

    2.2. Requiring companies that are collecting, storing, and 
analyzing proprietary data to provide full disclosure of their 
intended use of the data;

    2.3. Formation of standardized protocols regarding privacy 
and terms of conditions to ensure a standard definition of all 
components within the contract. We should be an active 
participant in developing these protocols;

    2.4. Compensation to farmers whose proprietary data is 
shared with third parties that offer products, services or 
analyses benefitting from that data;

    2.5. Multiple participation options being included in all 
contracts;

    2.6. All proprietary information between the farmer and the 
company remaining between the two entities. This would not 
preclude a farmer from sharing data with whomever he/she 
chooses (e.g., a consultant);

    2.7. Utilizing all safeguards to ensure proprietary data is 
stored at an entity that is not subject to a Freedom of 
Information Act (FOIA) request;

    2.8. The farmers' right to enter into agreement and their 
rights to sell their proprietary data to another producer 
(e.g., in land sale);

    2.9. Private companies entering into agreements which would 
allow for the compatibility/updating of equipment and updating 
of software;

    2.10. The right of a farmer to have access to their own 
data, regardless of when it was shared with a company; and

    2.11. The right of the producer who no longer wishes to 
participate in aggregated data sharing with a private company, 
to remove their past aggregated data from the company's 
database and revoke that company's ability to sell or use that 
data in the future.

    3. We oppose any federal agency or FOIA-eligible entity 
from serving as a data clearinghouse for all proprietary data 
or aggregated data collected by private companies.
    Attachment 2: American Farm Bureau Federation (AFBF) 
unmanned aircraft systems (UAS) policies as adopted by voting 
delegates at the 95th Annual Meeting held January 2014.

    1. We support:

    1.1. The use of unmanned aircraft systems (UASs) for 
commercial purposes (i.e., agriculture, forestry, and other 
natural resource use);

    1.2. Requiring the operator of the UAS to gain the consent 
of the landowner and or operator, if the UAS will be surveying 
or gathering data about the landowner's property below 
navigable airspace; and

    1.3. The regulation of UASs as recreational aircraft.

    2. We oppose:

    2.1. A federal agency using UASs for the purpose of 
regulatory enforcement, litigation and as a sole source for 
natural resource inventories used in planning efforts;

    2.2. UASs surveying and gathering data without the consent 
of the landowner and or operator below navigable airspace; and

    2.3. FAA regulations of UASs as fixed-winged aircraft.

    [GRAPHIC] [TIFF OMITTED] T6640.004
    
    [GRAPHIC] [TIFF OMITTED] T6640.005
    
    Chairman Graves, Ranking Member Velazquez, and members of 
the Committee, thank you for inviting me to testify about the 
rapid growth in innovative wireless technologies and services 
being developed and commercialized by small businesses in the 
transportation industry.

    The Intelligent Transportation Society of America (ITS 
America) is the nation's largest association bringing together 
the transportation, technology and research communities to 
advance solutions to our nation's infrastructure, safety and 
mobility challenges. About half of our nearly 500 members are 
public agencies, universities and research labs. The other half 
are private sector companies, from the major automakers, high-
tech, telecom, tolling and infrastructure firms to small 
businesses, start-ups and entrepreneurs who are increasingly 
taking the transportation world by storm.

    Intelligent Transportation Systems (ITS) encompass a broad 
range of information and communications technologies that 
improve transportation safety, efficiency, convenience and 
system performance. When integrated into the nation's roadways, 
vehicles, and public transit networks, ITS can help reduce 
congestion, improve mobility, save lives and optimize existing 
infrastructure. Examples of ITS include advanced traffic, 
freight, and incident management systems; synchronized and 
adaptive traffic signals; electronic tolling and payment 
systems; real-time traffic, transit, routing and parking 
information; collision avoidance and response technologies; 
high-occupancy toll (HOT) lanes; dynamic carsharing and 
ridesharing; infrastructure condition assessment technologies; 
and other high-tech solutions tailored to local or regional 
challenges.

                         ITS and Small Business


    It is widely accepted that a transportation system which 
enables the efficient movement of goods and people is necessary 
for economic growth. Inventory deliveries, shipments to 
customers and a ready workforce all benefit from a predictable 
and free-flowing transportation system.

    ITS builds upon these efficiencies using real-time traffic 
data to reduce congestion via integrated corridor management, 
real-time incident and emergency response systems, traveler 
information systems, traffic signal optimization, electronic 
truck inspections, and even simple things like ramp meters. In 
addition, this same real-time data is being used by private 
sector innovators to give today's commuters better information 
about current traffic conditions, more efficient routing 
alternatives, public transportation options and even available 
car and truck parking spaces.

    Researchers from the Information Technology and Innovation 
Foundation (ITIF) and the London School of Economics have found 
that investing in ITS creates a network effect throughout the 
economy and stimulates job creation across multiple sectors, 
including the high-tech, automotive, information technology, 
consumer electronics, and related industries of which a large 
proportion are small businesses. In addition, an average of 50 
percent of ITS project spending goes directly to wages and 
salaries according to U.S. DOT, as compared with 20 percent for 
new highway construction. Moreover, according to ITIF, the use 
of ITS technologies on average provides an estimated 9-to-1 
benefit-cost ratio as compared to an estimated 2.7-to-1 
benefit-cost ratio for the addition of conventional highway 
capacity.

    You may have seen the U.S. Department of Transportation's 
recent announcement about the advancement of vehicle-to-vehicle 
communications technology, which is expected to prevent or 
reduce the impact of 80 percent of unimpaired crash scenarios. 
While a reduction in automobile crashes may not appear to be a 
job creation activity, mitigating congestion and improving 
throughput on our nation's transportation system is a 
foundation for a strong economy on which businesses of all 
sizes can better plan for growth.

    Historically, the auto industry has focused much of its 
safety efforts on mitigating the impacts of a crash after it 
happens; but the next giant leap in reducing the number of 
fatalities and injuries on our nation's roads is to prevent 
crashes before they happen. This has a direct impact on 
congestion on our roadways. According to the Texas A&M 
Transportation Institute's latest Urban Mobility Report, the 
financial cost of congestion is more than $120 billion each 
year, wasting nearly 5.5 billion hours and $3 billion gallons 
of gasoline, causing the average commuter to spend almost a 
full work week stuck in traffic, and putting more than 56 
billion additional pounds of emissions into our communities, 
towns and cities.

    Connected vehicle technologies would not be here today 
without the innovation of small businesses and entrepreneurs 
who were willing to take a risk in order to provide the public 
with better products and services. While U.S. DOT and the 
automakers have received much of the coverage for these 
technological advancements, it would not be happening without 
small businesses like Santa Clara, California-based Savari 
Networks serving as the leading supplier of on board and road 
side units for the connected vehicle market in the United 
States. While still a small company, Savari just opened an R&D 
center in Detroit and expects to double its employee strength 
by end of the year. And they are one of many small businesses 
who are working to transform our transportation future.

    Other companies are working to integrate transportation 
services based on connected vehicle technology into smart 
phones and other aftermarket devices so these groundbreaking 
safety benefits can be extended all throughout the nation's 
infrastructure as well as to pedestrians, motorcyclists and 
bicyclists. This promises to significantly reduce the number of 
deaths and injuries on our nation's roads while unleashing a 
new wave of innovation, from advanced traffic management 
systems and on-demand services to real-time traffic, transit 
and parking information and countless new transportation 
applications that we haven't even thought of yet.

    Even before we reach a fully-deployed connected vehicle 
network, the explosion of real-time transportation information, 
location data, wireless billing and smart phone platforms have 
transformed mobility, providing commuters with a plethora of 
new options from car-sharing, ride-sharing and on-demand 
services to smart parking and navigation apps. Small businesses 
like Uber, Lyft, WAZE, RideScout, Car2Go, Streetline, 
ParkMobile, Parkopedia, Getaround, and many other companies 
which didn't exist five years ago are fast becoming household 
names, using wireless technology and transportation data to 
provide more efficient and convenient services to the public.

    These small businesses are creating good jobs, thousands of 
jobs, with technologies that enable smarter use of the nation's 
transportation system and services.

                  Removing Barriers for Small Business


    Today's market is enchanted by driverless vehicles, which 
is creating even greater excitement around the ITS industry. 
However, autonomous and connected transportation produces 
incredible amounts of data which needs to be collected, 
analyzed, secured and in some cases made available. While this 
provides tremendous opportunity for innovation, our future 
transportation network is challenged by a patchwork of data 
policies that undermines connectivity and creates an uncertain 
environment for entrepreneurs.

    Absent leadership and clear policy direction from Congress 
and governmental agencies, businesses that could provide 
valuable services in the market and generate jobs are unable to 
find firm footing. And our awareness of transportation system 
performance is much worse because of inconsistent or incomplete 
policies from the hundreds of agencies that operate the 
nation's transportation network. A common policy that makes 
transportation data available and secure, while maintaining 
complete anonymity for individual and commercial users, is both 
possible and necessary.

    Another challenge is the need to preserve dedicated 
spectrum in the 5.9 GHz band which was set aside by the Federal 
Communications Commission (FCC) to ensure high-speed, accurate, 
secure and reliable communications which are critical for 
connected vehicle safety systems. It is essential that the 
availability and performance of this spectrum is protected for 
safety purposes, while also freeing up additional spectrum 
where it makes sense and where it can be done without 
jeopardizing safety for expanded WiFi applications.

    These innovations described here will be showcased from 
September 7-11, 2014 at the 21st World Congress on Intelligent 
Transportation Systems which will be held in the birthplace of 
America's auto industry in Detroit, Michigan. I invite each of 
you to visit Detroit and ride in a connected or automated 
vehicle or check out the latest transportation innovations on 
display. You will learn firsthand how dedicated men and women 
from innovative businesses large and small are working to 
improve our nation's transportation system and provide new 
services while creating good jobs and strengthening our 
nation's economic future.

    I thank you for the opportunity to testify, and look 
forward to answering your questions.

[GRAPHIC] [TIFF OMITTED] T6640.006

    Chairman Graves, Ranking Member Velazquez, and members of 
the Committee. Thank you for the opportunity to testify at this 
hearing on ``Building on the Wireless Revolution: Opportunities 
and Barriers for Small Firms.''

    Since 2008, I have been Vice President and Director of 
Governance Studies at the Brookings Institution. I am the 
author of 18 books, including Digital Government: Technology 
and Public Sector Performance (Princeton University Press, 
2005), Digital Medicine: Health Care in the Internet Era 
(Brookings Institution Press, 2009) and Digital Schools: How 
Technology Can Transform Education (Brookings Institution 
Press, 2012). I direct the Brookings Center for Technology 
Innovation.

    As the statement below demonstrates, wireless 
communications is growing dramatically and is vital for 
economic development. There are tremendous opportunities for 
small businesses if we can overcome the obstacles that 
currently exist. We need a balanced spectrum policy that 
includes licensed and unlicensed spectrum, greater efficiency 
in the use of current spectrum, incentive auctions that 
reallocate underutilized bandwidths to high priority areas, and 
universal access to high-speed broadband.

    The Growth of Mobile Technology

    Mobile usage is rising rapidly in the United States. 
According to an eMarketer Statista analysis, the number of U.S. 
smartphone users has risen dramatically since 2010. The total 
increased from 62.6 million in 2010 to 140 million in 2013 (see 
Figure 1). By 2017, it is likely to rise to 207.4 million 
smartphone users.\1\

[GRAPHIC] [TIFF OMITTED] T6640.007

    The Role of Mobile Technology in Economic Development, 
Education, and Health Care

    Mobile technology is an important driver of job creation 
and economic growth. An analysis by economists Harald Gruber 
and Pantelis Koutroumpis, for example, found that national 
growth improves significantly based on mobile usage. Looking at 
192 nations from 1990 to 2007, they found increasing returns in 
terms of productivity and growth linked to the use of mobile 
devices. For high income nations, mobile technology added 0.20 
percent annually to Gross Domestic Product, while in low income 
countries, it contributed 0.11 percent.\2\ They also looked at 
mobile infrastructure investment and found that it paid off in 
economic growth. Nations that invested saw annual GDP gains of 
0.39 percent in high income places and 0.19 percent among low 
income places.\3\

    A Deloitte analysis of the United States meanwhile 
``estimated $25-53 billion investment in 4G mobile wireless 
technology in the US is projected, using standard GDP 
multipliers for the industry, to create $73-151 billion in GDP 
growth and between 371,000 and 771,000 new jobs.'' \4\ This and 
other studies around the world corroborate the contention that 
investment in mobile broadband enhances economic growth.

    With new advances in mobile learning and mobile health 
care, it is crucial to have high-speed networks that promote 
connectivity and communications. In the education area, for 
example, wired classrooms, handheld devices, and electronic 
instruction let pupils learn at their own pace. Personalization 
makes education more adaptive and timely from the student 
standpoint and increases the odds of pupil engagement and 
mastery of important concepts.\5\

    We are seeing the growing use of wireless devices in health 
care. Medical treatment now draws upon remote monitoring 
devices, electronic medical records, social networking sites, 
video conferencing, and Internet-based recordkeeping systems. 
Using remote monitoring devices, people can measure their own 
weight, blood pressure, pulse, and sugar levels, and send test 
results electronically to health care providers. They can get 
personalized feedback via email and reminders when they gain 
weight, have an uptick in their cholesterol levels, don't take 
their medicine, or have high blood pressure.\6\

    Around 80 percent of American doctors use a mobile device 
in their medical practice. According to research by Andrea 
Downing Peck, doctors rely upon their smart phones to ``search 
for drug and treatment reference materials, learn about new 
research, diagnose diseases, and educate patients.'' Ready 
access to information makes them more efficient and effective 
in their operations.\7\

    Research by the Boston Consulting Group and Telenor Group 
found that ``mHealth can reduce the costs of medical care among 
the elderly by 25 percent [and] double access to physicians by 
those living in rural areas.'' \8\ According to those 
researchers, it has made a huge difference in medical service 
delivery and helped to bring health care to underserved areas.

    Current Barriers

    Mobile technology is vital for small businesses because it 
helps entrepreneurs launch companies, build businesses, and 
provide jobs. Wireless broadband allows them to stay connected 
even while they are on the go. They can reach bank officers, 
suppliers, and customers as they travel around the area. This 
helps them remain in close contact with key people and build 
the required personal relationships.\9\

    But there are a number of obstacles that make it difficult 
for small businesses to take advantage of the mobile 
revolution. These problems include financing, regulation, 
spectrum availability, infrastructure, and access. Below, I 
review these challenges in greater detail.

    Financing

    It is hard for small businesses to attract sufficient 
financial capital. The Startup Act addressed some of these 
issues through an easing of paperwork requirements and 
regulatory oversight. But in the aftermath of the Great 
Recession, large financial institutions often don't want to 
lend money to new businesses. They worry about lending risk, 
business models, and long-term sustainability. These fears make 
them reluctant to take risks with emerging companies, and this 
creates obstacles in terms of new firms getting off the ground.

    Regulation

    It is a struggle for many small firms to deal with 
government regulations. They don't have large staffs to process 
the required paperwork and make sure they are compliant with 
federal rules. Mobile industry companies have to deal with a 
large number of agencies, such as the Federal Communications 
Commission, which regulates telecommunications, the Securities 
and Exchange Commission, which oversees finance and business 
operations, the Federal Trade Commission, which examines market 
completion issues, and the Food and Drug Administration, which 
regulates medical devices. Facing detailed record-keeping and 
oversight, it often is difficult for small firms to gain a 
foothold in the industry.

    Spectrum
    Spectrum policy has significant implications for small 
businesses. If one looks at spectrum policy, it historically 
has been allocated on a band-by-band basis for particular 
services. That means that certain frequencies have been 
reserved for aviation, television broadcasting, paging 
services, medical devices, cellular, and the like.\10\ 
Overtime, a hodge-podge of decisions has led to inefficiencies. 
Rapidly-growing areas are running out of available spectrum, 
while others experience demand that is far below the available 
spectrum capacity.

    As shown in Figure 1, demand has risen tremendously in the 
wireless area and is out-stripping the available supply. 
According to the FCC, we need a minimum of 300 MHZ for mobile 
technology over the next five years in order to accommodate 
growing cellphone usage, handheld devices, smartphones, 
tablets, and mobile broadband.\11\ It is vital to gain access 
to spectrum in order to facilitate job creation, economic 
development, and long-term innovation.

    Infrastructure and Access

    There are issues for small business in regard to mobile 
infrastructure. Firms require high-speed networks that connect 
them with consumers and businesses. Right now, we need faster 
networks with more universal connectivity. Based on Pew 
Research Center polls, around 30 percent of Americans do not 
have home Internet access.\12\ There are many reasons why 
people have not adopted broadband service. A survey undertaken 
by the Federal Communications Commission, for example, reveals 
that 36 percent cite the overall cost of the service, 22 
percent say they are uncomfortable with the Internet, and 19 
percent find digital content not compelling enough to warrant 
usage.\13\

    Needed Policy Actions

    Broadband utilization and mobile technology innovation are 
growing rapidly, but there remain several actions that would 
further business opportunities and long-term economic 
development. Below, I review specific actions that will help 
small businesses take advantage of wireless technology.\14\

    Access to Financial Capital

    In order to help small firms get off the ground, we must 
make it easier for them to attract financial capital. One 
reform that would be helpful in this regard is a research 
credit for new firms that earn less than $5 million. This 
investment would bolster capital acquisition and help these 
companies bring innovative products or services to the 
marketplace. Small investments of targeted tax credits can 
yield significant economic benefits.

    More Flexible Rules

    We need to think about more flexible rules in regard to the 
mobile sector. There is tremendous vibrancy and dynamism in 
this sector and federal agencies should be careful that they 
encourage innovation at the same time they protect the health 
and well-being of consumers. The Food and Drug Administration, 
for example, took useful steps in this regard through its 2013 
guidance on mobile medical devices.\15\ It reviewed a variety 
of apps and products, and outlined which ones should be subject 
to regulation, which ones should not, and which ones would be 
subject to ``enforcement discretion'', meaning that they are 
not likely to pose significant risks to consumers. This kind of 
thoughtful oversight helps medical app and device manufacturers 
plan for the future and understand what regulatory environment 
they are likely to face in the future.

    Incentive Auctions to Reallocate Scarce Spectrum

    One of our big challenges is the mismatch between spectrum 
supply and demand in particular bandwidths. A market-based 
mechanism for reallocating scarce resources is spectrum 
auctions.\16\ Used successfully in the past, members of 
Congress should allow companies that no longer need spectrum to 
sell them to other business willing to pay.

    This approach would have several benefits. It would provide 
a way for companies to sell unused resources. It gives access 
to spectrum for cell and mobile providers so they better can 
serve consumers and businesses. Auctions also bring in needed 
resources to the federal government to finance the national 
budget.

    The Federal Communications Commission currently is working 
on its specifications for an upcoming auction. Legislators 
should make sure that small businesses have a fair shot at 
competing for unused spectrum and that entrepreneurs from 
diverse walks of life have an opportunity to bid on spectrum.

    Fees for Unused Spectrum

    A number of public or private organizations has unused 
spectrum. This includes the military forces, broadcast 
television, and government agencies. They sit on spectrum 
thinking that someday they may use it. Rather than not making 
use of a valuable resource, they should pay fees for holding 
that spectrum. Having fees for unused spectrum would provide 
clearer incentives for organizations to employ the spectrum or 
understand the value to others if they don't make use of it. It 
is a way to bring market valuations into the spectrum rights 
engine.

    Unlicensed Applications in the 5 GHz bandwidth

    A number of innovative small business services make use of 
unlicensed Wi-Fi. Consumers can access a wide range of digital 
services at coffee shops, in airports, and through business 
establishments around the country. According to the Cisco 
Visual Networking Index, 55 percent of all Internet Protocol 
traffic will run over Wi-Fi networks by 2017.\17\ A number of 
Internet service providers are moving their service delivery to 
Wi-Fi hotspots. These are provided either by consumers 
themselves or made available through phone carriers. Improving 
availability to unlicensed spectrum through the 5 GHz band will 
alleviate some of the current congestion. However, next-
generation Wi-Fi (so-called Gigabit Wi-Fi) will need unlicensed 
spectrum in the 5 GHz band.

    Better Use of 3.5 GHz Bandwidth

    There currently is under-utilized bandwidth in the 3.5 GHz 
area. It is possible to turn this low-power segment into a 
Citizens Broadband Service.\18\ Right now, it is deployed for 
naval radar utilization, but could be used for civilian 
purposes in geographic areas where the Navy does not operate. 
This spectrum repurposing would allow people to take advantage 
of these networks.

    More Efficient Use of Existing Spectrum

    We need to determine ways to make more efficient use of 
existing spectrum. Advances in cognitive radio applications 
help to make more efficient use of current resources. 
Scientists are working on ways that allow multiple, non-
interfering uses of various bandwidths. This is helping to 
create greater efficiency in the spectrum rights system.

    In a Brookings paper, Robert Matheson and Adele Morris 
propose technical solutions designed to improve the efficiency 
of spectrum utilization. They argue that it is possible to 
improve bandwidth utilization through a series of technical 
improvements. For example, they suggest that licensees should 
be able to ``buy, sell, aggregate, and subdivide their LERs 
(licensed electrospace right) at will.'' \19\ A ``flexible 
rights regime'' offers greater efficiency, they say, than the 
current ``command and control'' approach.

    Infrastructure Improvements
    New applications in education, health care, high-definition 
television, and video conferencing require high-speed mobile 
broadband. We need to improve data-sharing networks and promote 
wireless connections that take advantage of these new 
developments. Although nearly all of the investment for 
infrastructure improvement will come from the private sector, 
the FCC should make sure its rules facilitate innovation.

    We need to encourage local communities to streamline the 
approval process for building new cell towers and laying fiber 
optic lines. Right now, communities have different rules and 
processes and this makes it expensive for private companies to 
expand digital infrastructure in a timely and affordable 
manner.\20\

    Higher Home Broadband Adoption Among Underserved 
Populations

    For underserved populations, there are a variety of actions 
that would increase home broadband adoption. For example, 
digital literacy programs would train people on online 
applications that may be useful to them. Improved market 
competition also would help drive down consumer cost barriers 
that currently limit use. And outreach programs could help 
bridge the digital divide based on age, race, gender, income, 
and education. With these proposed actions, consumers and small 
businesses would have better opportunities to gain the benefits 
of the mobile economy.
    Notes

    ------------------------------------------

    <SUP>1</SUP>eMarketer Statista report, ``Number of 
Smartphone Users in the U.S. from 2010-2017'', see link at 
http://www.statista.com/statistics/201182/forecast-of-
smartphone-users-in-the-us/.

    <SUP>2</SUP>Harald Gruber and Pantelis Koutroumpis, 
``Mobile Telecommunications and the Impact on Economic 
Development.'' Economic Policy, Volume 67, July 2011, pp. 387-
26.

    <SUP>3</SUP>Harald Gruber, and Pantelis Koutroumpis, 
``Mobile Telecommunications and the Impact on Economic 
Development.'' Economic Policy Volume 67, July 2011, pp. 387-
426.

    <SUP>4</SUP>Deloitte, ``The Impact of 4G technology on 
commercial interactions, economic growth, and U.S. 
competitiveness'', August 2011. http://www.deloitte.com/assets/
DcomUnitedStates/Local%20Assets/Documents/
TMT<INF>--</INF>us<INF>--</INF>tmt/
us<INF>--</INF>tmt<INF>--</INF>impactof4g<INF>--</INF>081911.pdf.

    <SUP>5</SUP>Ruth Moody and Michael Bobic, ``Teaching the 
Net Generation without Leaving the Rest of Us Behind: How 
Technology in the Classroom Influences Student Composition'', 
Politics & Policy, Volume 39, no. 2, 2011, pp. 169-194.

    <SUP>6</SUP>Darrell M. West, ``Improving Health Care 
through Mobile Medical Devices and Sensors,'' Brookings 
Institution Center for Technology Innovation, October, 2013.

    <SUP>7</SUP>Andrea Downing Peck, ``App-solutely fabulous'', 
Medical Economics, suppl, Nov. 25, 2011, pp. S11-S14.

    <SUP>8</SUP>Boston Consulting Group and Telenor Group, 
``Socio-Economic Impact of mHealth'', February 28, 2012.

    <SUP>9</SUP>Darrell M. West, Allan Friedman, and Walter 
Valdivia, ``Smart Policy: Building an Innovation-Based 
Economy'', Washington, D.C.: Brookings Institution Center for 
Technology Innovation, 2013.

    <SUP>10</SUP>See the Federal Communications Commission's 
``Spectrum Dashboard'' at http://reboot.fcc.gov/
spectrumdashboard.

    <SUP>11</SUP>Federal Communications Commission, Connecting 
America: National Broadband Plan, 2010, p. 75.

    <SUP>12</SUP>Pew Research Center, ``Home Internet Access,'' 
May, 2013.

    <SUP>13</SUP>Federal Communications Commission, Connecting 
America: National Broadband Plan, 2010, p. 168.

    <SUP>14</SUP>Additional proposals can be found at Darrell 
M. West, ``Technology and the Innovation Economy'', Washington, 
D.C.: Brookings Institution Center for Techno9logy Innovation, 
October 19, 2011.

    <SUP>15</SUP>Darrell M. West, ``Improving Health Care 
through Mobile Medical Devices and Sensors,'' Brookings 
Institution Center for Technology Innovation, October, 2013.

    <SUP>16</SUP>Jeffrey Rosen, ``The Future of Spectrum'', 
Washington, D.C.: Brookings Institution Issues in Technology 
Innovation, August, 2011.

    <SUP>17</SUP>Cisco Visual Networking Index, ``Forecast and 
Methodology, 2012-2017,'' May 29, 2013.

    <SUP>18</SUP>Michael Calabrese, ``Solving the `Spectrum 
Crunch': Unlicensed Spectrum on a High-Fiber Diet,'' Time 
Warner Cable Research Program on Digital Communications, Fall, 
2013, p. 15.

    <SUP>19</SUP>Robert Matheson and Adele Morris, ``The 
Technical Basis for Spectrum Rights: Policies to Enhance Market 
Efficieny'', Washington, D.C.: Brookings Institution, March 3, 
2011.

    <SUP>20</SUP>Darrell M. West, Allan Friedman, and Walter 
Valdivia, ``Smart Policy: Building an Innovation-Based 
Economy'', Washington, D.C.: Brookings Institution Center for 
Technology Innovation, 2013.
                   House Committee on Small Business


   Hearing: ``Building on the Wireless Revolution: Opportunities and 
                       Barriers for Small Firms''


                           February 11, 2014


    Question for the Record

    Rep. Hanna: Question for Michael Feldman of Big Belly 
Solar.

    As I understand, there is value to park services using 
BigBelly in terms of reduced waste management costs, litter and 
animal control in parks. Please explain any barriers to entry 
into the National and State Park services including any 
improvements or suggestions for what the committee could do to 
assist increase use of sustainable devices such as BigBelly in 
parks.

    Answer response

    Representative Hanna, thank you for the question.

    The largest hurdle faced by the parks department is funding 
for this type of technology equipment. From conversations 
within the department, we believe the value proposition is well 
understood, along with the benefits you mentioned. However, the 
purchase of a BigBelly System is not specifically included 
during budget cycles and makes it very difficult for the 
Service to approve the expenditure. Any insight, assistance or 
introductions to those responsible for the Parks Service 
budgeting process would help get the BigBelly savings deployed 
to an already cash depleted Service. We would be thrilled to 
save tax payer dollars on trash collection in the Parks system.
[GRAPHIC] [TIFF OMITTED] T6640.008

    The Computer & Communications Industry Association (CCIA) 
represents large, medium-sized, and small companies in the high 
technology products and services sectors, including computer 
hardware and software, electronic commerce, telecommunications 
and Internet products and services--companies that collectively 
generate more than $250 billion in annual revenues.\1\
---------------------------------------------------------------------------
    \1\ A complete list of CCIA members is available at http://
www.ccianet.org/members.

    CCIA applauds the Committee for convening this hearing. 
Small businesses in almost every industry sector from clean 
energy to agriculture to retailing are increasingly relying on 
fixed wireless connections including WiFi in their daily 
operations. Cisco predicts that by 2017, WiFi will handle a 
majority of all data that consumers access from the 
Internet.\2\
---------------------------------------------------------------------------
    \2\ Cisco Visual Networking Index, Forecast and Methodology, 2012-
2017 (May 2013), available at http://www.cisco.com/en/US/solutions/
collateral/ns341/ns525/ns537/ns705/ns827/
white<INF>--</INF>paper<INF>--</INF>c11-
481360<INF>--</INF>ns827<INF>--</INF>Networking<INF>--</INF>Solutions<INF>--</INF>
White<INF>--</INF>Paper.html.

    WiFi runs on unlicensed spectrum that anyone can use as 
long as they comply with FCC technical rules that prevent 
interference. Coffee shops, airports and libraries make WiFi 
available to customers. WiFi provides a platform for techies to 
``innovate without permission'' in their garages and basement 
---------------------------------------------------------------------------
offices where start-up companies are often born.

    WiFi offloading at the edges of carrier networks makes both 
wireline broadband and mobile cellular connections faster and 
more effective.

    The exclusively licensed frequencies that mobile carriers 
use require huge sums for capital investment in spectrum 
acquisition and expensive and sophisticated regulatory 
operations that small businesses simply do not have. That's why 
unlicensed WiFi is such a valuable alternative. The largest two 
carriers have already aggregated about three quarters of mobile 
licensed spectrum all for themselves, making market dominance 
another barrier to entry even for mid-sized firms. That's why 
FCC limits on spectrum holdings are so important ahead of the 
2015 incentive auctions of 600 MHz frequencies.

    Wireless Internet Service Providers (WISPs) provide small 
businesses and consumers an independent option for local area 
broadband access using WiFi. WISPs are particularly popular in 
rural areas with little or no landline infrastructure. 
Regulation is minimal and rates are often very affordable.\3\
---------------------------------------------------------------------------
    \3\ Richard Thanki, The Economic Significance of License-Exempt 
Spectrum to the Future of the Internet (June 2012), available at http:/
/download.microsoft.com/download/A/6/1/A61A8BE8-FD55-480B-A06F-
F8AC65479C58/Economic%20Impact%20of%20License%20Exempt%20Spectrum%20-
%20Richard%20Thanki.pdf.

    Unfortunately, WiFi is vulnerable to overcrowding and 
congestion from the deluge of data being consumed and sent by 
an ever-proliferating sea of devices from smartphones to 
---------------------------------------------------------------------------
tablets to industrial monitors and video game consoles.

    Engineers are developing creative solutions for making more 
unlicensed spectrum available. Improving the availability of 
spectrum through the 5 GHz band can help. Some experts believe 
that the future of spectrum is about various forms of 
sharing.\4\ Cognitive radio applications that use smart 
transmitters and receivers that can detect other signals and 
avoid interference on the fly are a promising way to increase 
the efficiency of spectrum use. The FCC is in the process of 
harvesting spectrum from TV broadcasters who are willing to 
share a channel with others, move to less valuable frequencies 
or go off the air and deliver their programming online only. 
Two Los Angeles TV stations recently announced their testing of 
a new channel sharing arrangement.\5\
---------------------------------------------------------------------------
    \4\ Kevin Werbach & Aalok Mehta, The Spectrum Opportunity: Sharing 
as the Solution to the Wireless Crunch, 8 INT'L J. COMM. 128 (2014), 
available at http://ijoc.org/index.php/ijoc/article/view/2239/1054.
    \5\ Joe Flint, Two Los Angeles TV stations to test sharing 
spectrum, L.A. TIMES, Jan. 28, 2014, available at http://
www.latimes.com/entertainment/envelope/cotown/la-et-ct-two-los-angeles-
tv-stations-to-test-sharing-spectrum-20140128,0,5373030.story.

    Another promising opportunity is the reallocation of 
spectrum currently assigned to federal agencies for commercial 
use instead. Spectrum sharing arrangements could allow for 
occasional mission critical government uses, while freeing up 
capacity most of the time for private sector uses. The 3.5 GHz 
band, for example, is currently underutilized by the military 
and could be made available for civilian use in many geographic 
---------------------------------------------------------------------------
areas.

    We urge the Committee to support the FCC and other federal 
agencies as they preserve existing unlicensed spectrum 
designations, clear new spectrum for unlicensed use, and adopt 
simple rules for unlicensed uses that small businesses can rely 
on when making investments and designing products and systems.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
